APPENDIX TO PETITION

Appendix (1) Michigan Court of Appeals judgment
Appendix (2) Michigan Supreme Court Judgment
Appendix (3) United States District Court, In The Eastern District of Michigan Judgment
Appendix (4) United States Court pf Appeals, In The Sixth Circuit Judgment
Appendix (5) Attorney Grievance Commission (Complaint)
Appendix (6) Attorney Grievance Commission (Response)
Appendix

(7) Motion For Certificate Pursuant to Uniform Act to Secure Attendance of

Witness, From Without State
Appendix (8) Petition To Hold Material Witness To Bail, Order To Hold Material Witness
To Bail After Hearing
Appendix (9) Arthur Jones Plead Bargin
Appendix (10) Arthur Jones Volunteering/Acting as an Agent Kite
Appendix (11) Petitioner's Motion For Production of records and Judge's Order Granting
/
/

Petitioners Motion*

/
/

HoL&}

i

1

APPENbU - if\j\tcVn^oA Q.t.gcV OP Appe^As Q'g.dlflpmoOT'

<?

k

k

k

k

Defendants Copy-Admin Order 1983=7
)

)

STATE OF MICHIGAN
COURT OF APPEALS

UNPUBLISHED
March 22, 2016

PEOPLEOF THE STATE OF MICHIGAN,
Plaintiff-Appellee,

No. 320773
Berrien Circuit Court
LCNo, 2013-000303-FC

v
JOVON CHARLES DAVTS;
Defendant-Appellant.

Before: O’CONNELL, P.J., and MARKEY and MURRAY,-JJ.
Per Curlam.
Following a jury trial, defendant was convicted of second-degree murder, MCL 750.317;
assault with intent to commit murder, MCL 750.83; felon-in-possession of a firearm, MCL
750.224f; carrying a concealed weapon, MCL 750.227; possession of a firearm during the
commission of a felony, MCL 750.227b; and domestic assault third offense, MCL ,750.81(4).
The trial court sentenced defendant as a fourth-offense habitual offender, MCL 769.12, to
concurrent terms of imprisonment, of 600 months to 100 years for the murder conviction, 300 to
900 months for the assault conviction, 76 to 240 months for the felon-in-possession and carrying
a concealed weapon convictions, and 46 to 180- months for the domestic assault conviction,
preceded by two years for the felony-firearm conviction Defendant appeals by right We affirm
defendant’s convictions but remand for correction of the judgment of sentence to reflect that the
sentence for carrying a concealed weapon is concurrent with the felony-firearm sentence.
Defendant’s convictions arise out of the murder of Gary Alilovich and .the assault of
Heather Britt on January 18,2013, at the house of Crystal McKenzie in Benton Harbor. ■
Defendant first argues that the trial court either erred in allowing the late endorsement of
Robert Jones, who testified about statements that defendant made to him after defendant was
placed in the same jail block as he, or for refusing to grant a continuance so that he could have
time to prepare to challenge Jones’s testimony. The trial court denied defendant’s request for an
adjournment. Thus, the'issue whether the trial court erred in not adjourning trial as a remedy for
the late endorsement is preserved. People v Metamora Water Serv, Inc, 276 Mich App 376, 382;
741 NW2d 61 (2007). But, because defendant never argued that the late endorsement was not
supported by good cause, that issue, is unpreserved. Id. We generally review a trial court’s
decision to permit the late endorsement of a witness for an abuse of discretion. People V Callon,
256 Mich App 312, 325-326; 662NW2d 501 (2003). A trial court abuses its discretion when its
-1-

-f

*

i

.f

£

A

A

decision falls outside the range of reasonable and principled outcomes. People v Unger, 278
Mich App 210, 217; 749 NW2d 272 (200'8). A trial' court’s decision on a .motion for an
adjournment is generally reviewed for an abuse of discretion. People v Coy, 258 Mich App 1,
17; 669 NW2d 831 (2003). We review unpreserved claims of error, however, for plain error
affecting the defendant’s substantial rights. People v Corines, 460 Mich 750, 763; 597 NW2d
130 (1-999).
'
At least: 30 days before trial, the prosecutor must send to defendant or defense counsel a
list of the witnesses that she intends to produce at trial. MCR 767.40a(3). The prosecutor may
add or delete witnesses from this list “at any time upon leave of the court and for good cause
shown or by stipulation of the parties.” MOL 767.40a(4).
The prosecutor did not learn about Jones and the possibility of his testifying until four
days before trial. She sent a detective to interview Jones,, and it was not until the day before trial
that the prosecutor learned the details of Jones’s proposed testimony. The late discovery of
Jones provided good cause for the late endorsement- People v Gadomski, 232 Mich App 24, 37;
592 NW2d 75 (1998); People y Canter, 197 Mich App 550, 563; 496NW2d 336 (1992).
“Ordinarily, late endorsement should be permitted and a'continuance granted to obviate
potentiaTprejudice that might result. All that is necessary is that the objecting party have time to
interview the witness before he is called to testify, and to investigate facts bearing on his
credibility, when appropriate.” People v Harrison, 44 Mich App 578, 586; 205 NW2d 900
(1973) (internal citations omitted). The prosecutor agreed not to call Jones as a witness until the
end of trial, and there was no dispute that trial would last several days. Accordingly, defendant
had the opportunity to interview Jones. This opportunity obviated any potential prejudice that
might result horn the late endorsement. ld.\ see also People v Lino, 213 Mich App 89, 92-93;
539 NW2d 545 (1995), overruled on other grounds People v Carson, 220 Mich App 662 (1996).
The trial court’s decision to deny an adjournment fell within the range of reasonable and
principled outcomes. Unger, 278 Mich App at 217.
Defendant next argues that the trial court erred when it ordered that his sentence for
carrying a concealed weapon run consecutively' to his sentence for felony-firearm. The
prosecutor concedes error, and we agree: A conviction for carrying, a concealed weapon, MCL
750.227, will not support a felony-firearm conviction, and thus cannot be ordered served
consecutively to a felony-firearm sentence. See MCL 750.227b(3); People v Bonham, 182 Mich
App 130,137; 451 NW2d530 (1989). Weremandfor correction of the judgment of sentence.
In a Standard 4 brief and in a supplemental Standard 4 brief, defendant argues that the
trial court improperly denied him copies of transcripts and court records, A trial court’s
obligation to provide an indigent defendant with transcripts and court documents depends on
whether the transcripts and documents are desired to pursue an appeal of right, an appeal by
leave, or other post-conviction relief. MCR 6.433; People v Cdston, 228 Mich App 291, 294;
579 NW2d 368 (1998). The present case involves an appeal by right. Thus, 'MCR 6.433(A)
t applies, and it provides:
An indigent defendant may file a written request with'the sentencing court
for specified court documents or transcripts, indicating that they are required to
-2y

■ y

y

y

p

p

.?=

'p

)

pursue an appeal of right The court must order the clerk to provide the defendant
with copies of documents without cost to the defendant, and, unless the transcript
-has already been ordered as provided in MCR 6.425, must order the preparation •
of the transcript
After he was sentenced, defendant filed an affidavit of indigency and requested the
, . appointment of appellate counsel. The trial court appointed appellate counsel for defendant. An
appointment order must' direct the court reporter to prepare and file the trial transcripts, the
sentencing transcript, and transcripts of other proceedings that the court directs or the parties
request. MCR 6.425(G)(2). “If the appointed lawyer timely requests additional transcripts, the
trial court shall order such transcripts within 14 days after receiving the request.” Id. Taken
together, MCR 6.425(G)(2) and MCR 6.433(A) indicatefhat once a transcript has been provided
to appellate counsel, the defendant is not entitled to additional copies of the transcript.
• Appellate counsel requested a copy of each transcript. There is no claim that appellate
counsel’s request was not fulfilled. Thus, under the court rules, defendant was not entitled to his
own copy of the transcripts. Additionally, in the court record, there is no written request .filed by
defendant for documents that are in the court record. Absent such a request, the trial court had
no duty to give copies of any court documents to defendant. See MCR 6.433(A). Defendant was
not improperly denied access to transcripts and court records.
Also in his Standard 4 brief and supplemental Standard 4 brief; defendant argues that the
trial court erred in denying his motion for an adjournment after he retained counsel and that the
denial of the adjournment resulted in a violation of his right to be represented by counsel of his
own choice. We review a trial court’s decision'on a motion for an adjournment for abuse of
discretion, Coy, 258 Mich App at 17, and review constitutional issues de novo, Callon, 256 Mich
Appat315.
An adjournment must be based on good cause. Coy, 258 Mich App at 18. Factors to
consider whether good .cause exists include “ ‘whether defendant (1) asserted a constitutional
right, (2) had a ■legitimate reason for asserting the right, (3) had been negligent, and (4) had.
requested previous adjournments.’ ” Id. (citation omitted). The Sixth .Amendment right to
counsel guarantees a defendant, who does not require appointed counsel, the right to choose who
will represent him. United States v Gonzalez, 548 US 140, 144; 126 S Ct 2557; 165 L Ed 2d 409
(2006).
’
When a defendant seeks an adjournment to retain or replace counsel, a trial court must
carefully balance the defendant’s right to counsel of his own choice against the public’s interest
in the orderly administration ofjusti.ee. United States v Burton, 584 F2d 485, 489 (DC Cir,1978). A key consideration to the right of counsel is a reasonable opportunity to employ and
consult with counsel. See United States v Johnston, 318 F2d 288, 291 (CA 6, 1963) (“But if a
defendant in a criminal case desires to hire his own counsel, in order that the object of the Sixth'
Amendment be met, such defendant must have fair opportunity and reasonable time to employ
counsel of his own choosing.”). “Once a fair and reasonable initial opportunity to retain counsel
has been provided, and adequate counsel obtained, the court, mindful of the accused’s interest .in
having counsel jn whom he. has confidence, is free to deny a' continuance to obtain additional

-3- .

' f

1

)

counsel if, upon evaluation of the totality of the circumstances, it reasonably concludes that the
delay would be unreasonable in the context of the particular case.” -Burton, 584 F2d at 490.
What is a- reasonable delay necessarily depends on all the surrounding
facts and circumstances. Some of the factors to be considered in the balance
include: the length of the requested delay; whether other continuances have beenrequested and granted; the balanced convenience or inconvenience to the litigants,
witnesses, counsel, .and the court; whether the requested delay is for-legitimate
reasons, of whether it is dilatory, purposeful, or contrived; whether the defendant
contributed to the circumstances which gives rise to the request for a continuance;
whether the defendant has other competent counsel prepared to try the case,
including the consideration of whether the other counsel was retained as lead or
associate counsel; whether denying the continuance will result in identifiable
prejudice to defendant’s case, and if so, whether this prejudice is of a material or
' substantial nature; the complexity of the case; and other relevant factors which
‘ may appear in the context of any particular case, [Id. at 490-491 (footnotes and
citations omitted).]
.

•

The trial court’s denial of defendant’s request for an adjournment did not deny defendant
a fair opportunity and reasonable time to retain counsel of his own choice. Defendant was
arraigned on January 22, 2013, but he did not retain counsel until just before the trial that began
January 14, 2014. Additionally, -trial had already been adjourned twice. The second
adjournment was because the trial court granted defendant’s request.to remove his first ;appointed
counsel. Notably, defendant did not seek retained counsel after his first attorney withdrew. He
waited seven weeks, until the eve of trial. Retained counsel then requested an adjournment of at
least four months even though the case did not present any complex issues. While defendant did
not want his appointed replacement defense counsel to represent him, he made no specific claim
that this counsel was unprepared, incompetent to try the case, or that he and counsel had
irreconcilable differences. Under these circumstances, the trial court’s denial of an adjournment
fell within the range of reasonable and principled outcomes. Unger, 278 Mich App at 217.
Defendant was not denied his Sixth Amendment right to be represented by an attorney of his
choice.
'
'
Defendant argues in his Standard 4 brief that he was denied-effective assistance of
counsel because defense counsel only had “mere weeks” to prepare for trial. In United States v
Cronic, 466 US 648,.658-662; 104 S Ct 2039; 80 L Ed 2d 657 (1984), the United States Supreme ,
Court identified three “rare” situations in which counsel’s performance is so deficient that
prejudice is presumed. One of these situations is where counsel is called upon to render
assistance under circumstances where competent • counsel very likely could not. People v
Frazier, 478 Mich 231, 243 n 10; 733 NW2d 713 (2007). Circumstances “may be present on '
some occasions when although counsel is available to assist the accused during trial, the
likelihood that any lawyer, even a fully competent one, could provide effective assistance is so
small that a presumption of prejudice is appropriate . . . .” Cronic, 466 US at 659.
*

Defense counsel represented defendant for at least seven weeks before trial began. In
Cronic, 466 US at 663-665, the Supreme Court held that the defendant was not entitled to a
presumption of prejudice where counsel represented the defendant for a shorter amount of time.
-4-

')

Additionally, defendant has not identified any circumstances that would likely have prohibited
any attorney, even a fully competent one, from providing effective assistance of counsel.
Cronic, 466 US at 658-662. Defendant’s claim that, he was denied effective assistance of
' counsel based on the length of defense counsel’s representation is without merit.
Additionally, defendant argues in his Standard 4 brief that based on defense counsel’s
actual performance, he was denied effective assistance of counsel. To establish a claim for
ineffective assistance of counsel, a defendant must show that counsel’s performance fell below •
objective standards of reasonableness and that but for counsel’s deficient performance, there is
' a
reasonable probability that the result of the proceedings would have been different People v
Uphaus (On Remand), 278 Mich App 174,185; 748 NW2d 899 (2008).
. .
Defendant claims that defense counsel was ineffective because he failed to object to
Jones’s testimony as a violation of defendant’s Sixth Amendment right to counsel.' In Massiah v
United States, 377 US 201, 206; 84 S Ct 1199; 12 L Ed 2d 246 (1964), the United States
Supreme Court held that “once a defendant’s Sixth Amendment right to counsel has attached, he
is denied that right when federal agents deliberately elicit incriminating statements from him in.
the absence of his lawyer.” Kuhlmann v Wilson, 477 US 436, 457; 106 S Ct 2616; 91 L Ed 2d
364 (1986). The concern of Massiah and a subsequent line of cases “is secret interrogation by
investigatory techniques that are the equivalent of direct police interrogation.” Id. at 459. “[A]
■ defendant does not make out a violation of that right simply by showing that an informant, either
through prior arrangement or voluntarily, reported his incriminating statements to the police.
Rather, the defendant must demonstrate that the police and their informant took some action,
beyond merely listening,'that was designed deliberately to elicit incriminating remarks.” Id.
Jones testified that he came into contact with defendant after defendant was moved into
the same jail block as he. There is no record evidence to indicate that the police purposely
placed defendant in the same block as Jones or that the police and Jones had worked out a plan to
gain incriminating statements from defendant. Nothing on the record refutes that Jones, on his
own and without any instruction or encouragement from the police, brought defendant’s
statements' to the attention of the prosecutor and police. So, an objection to Jones’s testimony on
the basis that it violated defendant’s Sixth Amendment right to counsel would have been futile;
failing to assert a futile objection is not ineffective assistance. Unger, 278 Mich App at 256.
Defendant also claims that defense counsel was ineffective because he failed p. conduct
an investigation, to impeach witnesses, to contact experts in self-defense and forensic pathology,
to hire a private investigator, and to call character and alibi witnesses. These claims, to be
successful, required a testimonial record. See People v Hoag, 460 Much 1, 6; 594 NW2d 57 .
(1999). Although the trial court held an evidentiary hearing on defendant’s motion for a new
"trial, defendant wrote and submitted his Standard 4 brief before the hearing was held. In that
brief, defendant leaves it to this Court to search for a factual basis to sustain his claims. As such,

-5-

I

)

the claims axe abandoned. People y Petri, 279 Mich App 407, 413; 760 NW2d 882 (2008). We
have nevertheless reviewed them and find them to be without merit.
Defendant next argues in his Standard 4 brief that he was denied due process and a fair
trial by misconduct of the police and the prosecutor. We review these unpreserved claims of
error for plain error affecting substantial rights. Corines, 460 Mich at 763-764.
There is no merit to defendant’s claim that he was denied due process because the police
and the prosecutor failed to conduct a gunpowder residue test or failed to interview witnesses
who would have provided evidence that he was not the perpetrator. We have previously held
that because the police are not required to seek and find exculpatory evidence, a defendant is not
denied due process when the police fail to test the defendant’s hands for gunpowder residue.
People v Miller, 211 Mich App 30, 43; 535 NW2d 518 (1995). Moreover, defendant bore the
burden of furnishing the Court with a record to verify the factual basis of any argument. People
v Elston, 462 Mich 751, 762; 614 NW2d 595 (2000). Nothing in the record indicates that any
witness who had knowledge of the events on January 18,2013, was not interviewed.
Defendant’s next claim, that he was denied due process because, the prosecutor failed tocorrect inconsistent or changed statements of witnesses, is abandoned. Defendant does not
identify the alleged inconsistent or changed statements, nor does he state the witnesses who gave
them. See Petri, 279 Mich App at 413 (holding an appellate court need not consider arguments
unsupported by citations to the record). We additionally reject defendant’s argument that he was
denied due process because the prosecutor or the police coerced McKenzie into giving false
testimony. There is no record evidence of any acts of intimidation by the police ox the
prosecutor. See Elston, 462 Mich at 762. We also reject defendant’s argument .that the
• prosecutor’s use of other acts evidence denied him due process and a fair trial. No evidence of
other acts by defendant was admitted at trial.2
Next, in his Standard 4 brief, defendant argues that he is entitled to a new trial because
the trial court was biased against him. Because defendant never moved to disqualify the trial
court from presiding over his trial, the issue is unpreserved. People v Mixon, 170 Mich App 508,
514; 429 NW2d 197 (1988), rev’d in part on other grounds 433 Mich 852 (1989). Our review is
therefore limited to plain error affecting substantial rights. Carines, 460 Mich at 763.
Due process requires an unbiased and impartial decision-maker. Cain v Dep't of .
Corrections, 451 Mich 470, 497; 548 NW2d 210 (1996). A judge is not impartial' when the

1 Because-defendant fails to establish that defense counsel’s performance, in any manner, was
deficient, his clainuthat he is. entitled to a new trial based on the cumulative effect of the
deficiencies in counsel’s performance is without merit. See People v Dobek, 274 Mich App 58,
106; 732 NW2d 546 (2007).
.Because defendant fails to establish any misconduct by the police or the prosecutor,
.. defendant’s claim that he is entitled to a new trial based on the cumulative effect of the
misconduct is also without merit. See Dobek, 274 Mich App at 106.

-6-

7

4

)

judge is personally biased or prejudiced for or against a party. MCR 2.003(C)(1)(a); Cain, 451
Mich at 494-495. There is a heavy presumption of judicial impartiality. Cain, 451 Mich at 497.
We reject defendant’s claim that the trial court was biased against him because it refused
bis requests for his own' separate copy of the transcripts and court records. As discussed supra,
defendant was not entitled to his own copy of the transcripts and he filed no written request for
court documents. Because the trial court was under no duty to provide defendant with copies of
the transcripts and court documents, the trial court’s failure to provide defendant with transcripts
and court documents is not evidence of bias.
We also reject defendant’s claim that the trial court was biased against him because it
made several prejudicial and erroneous rulings. The only ruling referenced by defendant is the
trial court’s decision to deny-an adjournment on-the first day of trial. The mere fact that a judge
rules against a litigant, even if the ruling is later determined to be erroneous, is not sufficient to
show bias. In re Contempt of Henry, 282 Much App 656, 680; 765 NW2d 44 (2009). “[Jjudicial
rulings, in and of themselves, almost never constitute a valid basis for a motion alleging bias,
unless the judicial opinion displays a deep-seated favoritism or antagonism-that would make fair
judgment impossible.” Arms.trongv Ypsilanti Charter Twp, 248 Mich App 573, 597; 640 NW2d
321 (2001) (quotation omitted). The trial court’s ruling does not display a deep-seated
antagonism against defendant. The trial court denied the motion to adjourn because the motion
was made on the eve of trial, the case was almost a year old, and had already been adjourned
twice. Nothing in the trial court’s ruling indicates that it wanted defendant to be represented by
counsel who was unfit and ill-prepared to try the case. Defendant has failed to overcome the
strong presumption of judicial impartiality. Cain, 451 Mich at 497.
Defendant further argues in his Standard 4 brief that bis convictions are not supported by
sufficient evidence. We review de novo a challenge to the sufficiency of the evidence. People v
Cline, 276 Mich App 634, 642; 741 NW2d 563 (2007). We view the evidence in a fight most
favorable to .the prosecution and determine whether a rational trier of fact could have found that
the prosecution proved the elements of the crime beyond a reasonable doubt. Id.
The elements of second-degree murder are “(1) a death, (2) the death was caused by an
act of the defendant, (3) the defendant acted with malice, and (4) the defendant did not have
lawful justification or excuse for causing the death.” People v Smith, 478 Mich 64, 70; 731
NW2d 411 (2007). Malice is the intent to kill, the intent to cause great bodily harm, or the intent
to do an act in wanton and wilful disregard of the fikefihood_ that the natural tendency of such
behavior is to cause death or great bodily harm. People v Goecke, 457 Much 442, 464; 579
NW2d 868 (1998). The elements of assault with intent to murder are (1) an assault,. (2) with the
actual intent to kill, and (3) that if death results, would make the killing murder. People v
Brown, 267 Mich App. 141, 147; 703 NW2d 230 (2005). .The elements of domestic assault are
(1) the commission of an assault or an assault and battery and (2) the defendant and the victim
are spouses or former spouses, are in or had a dating relationship, have a child in common, or are
residents of the same household. MCL 750.81(2); People v Cameron, .291 Mich .App 599, 614,806 NW2d 371 (2011); People v Corbiere, 220 Mich App 260, 26.6; 559 NW2d 666 (1996).
Britt testified that she and defendant had been dating “off and on” for six years and that
they lived together. On January 18, 2013, Britt and Alilovich, whom Britt had previously dated,
-7-

.

-i

4

.

“"s

1

)

were at McKenzie’s house. McKenzie testified that after she and defendant arrived, ‘defendant
started to hit Britt in the face with his hands after she pushed him. Alilovich, using words only,
tried to stop defendant. Defendant pushed Alilovich, and then started to hit Britt in the face with
his fists. Alilovich tried to stop defendant again, telling defendant to “get the fuck back.”
McKenzie did not see Alilovich'with a knife. According to McKenzie, while she was in the
kitchen fighting with Ashley Davis, defendant’s cousin, she heard a gunshot in a bedroom. She
ran toward the bedroom,, and saw defendant pointing a gun at Alilovich. Alilovich was on his
knees and begging defendant not to 'shoot. McKenzie ran out of the bedroom after she saw
defendant take a second 'shot at Alilovich. McKenzie heard a third gunshot when she was
outside. Britt’s young son, who was in another.bedroom, testified that he heard two 'gunshots
and then Alilovich say “please don’t do this.” He then heard two more gunshots. According to
her son, Britt came into the bedroom; her left chest was bleeding. Defendant also came into the
bedroom and started to hit Britt in the face. He then stomped on her face more than once.
Dr. Robert Clark, qualified as an expert in pathology, performed an autopsy on Alilovich.'
Clark testified that Alilovich had gunshot wounds to the back of his right elbow, the back of his •
right shoulder, and his head. Clark opined that the cause of death was exsanguination from a
gunshot wound to the chest. Alilovich had no wounds that suggested he had been in a fight. Dr.
Glen Hastings, qualified as an expert in general and trauma surgery, treated Britt in the
emergency room. Hastings testified that Britt had a concussion, four or five fractured ribs on
each side of her chest, fractures in the lumbar spine, a fracture of the right orbital bone, and five
gunshot wounds, including one to her left breast.
Three bullets were recovered from Alilovich’s body, and two were recovered from the
bedroom where defendant had stomped on Britt’s face. Lieutenant-Jeff Crump, qualified as an
expert in firearms and tool mark identification, testified that he compared the five bullets to test
shots from the .32-caliber revolver that was found in the woods. Crump identified four of the
five bullets- as having been fired from the revolver, and he could not exclude the-revolver as
having fired the fifth bullet. The revolver was silver with a black handle, and Britt had
previously seen defendant with a silver .32-caliber revolver with a black handle. In his
interview, defendant told two detectives that he shot Alilovich two times. According to Jones,
defendant said that after his family members arrived, he and Alilovich had more words. He then
pulled out the gun and shot Alilovich twice and Britt once.
Viewing this evidence in a fight most favorable to the prosecution, a rational trier of fact
could have found that the prosecution proved the elements of second-degree murder, assault with
intent to commit murder, and domestic assault beyond a reasonable doubt. Cline, 276 Mich App
at 642. The convictions are supported by sufficient evidence,
The elements of felon-in-possession of a firearm (specified felony), MCL 750.224f(2),
are (1) the defendant possessed a firearm, (2) the defendant was previously convicted of a
specified felony, (3) less than five years have passed since the defendant successfully completed
probation or parole, completed a term of imprisonment, and paid all fines with regard to the
underlying felony, and (4) the defendant’s right tq. possess a firearm has not been restored. M
' Crim JI 11.38a. The parties stipulated that defendant had previously been convicted of
possession with intent to dehver cocaine, which is a specified felony, see MCL 750.224f(10)(b), '
and that defendant was on parole on January 18, 2013. Viewing this evidence, as well as the -8rS

•-f

■4-

1
evidence previously summarized, in a light most favorable to the prosecution, a rational trier of
fact could have found that the prosecutor proved the elements of felon-in-possession of a firearm
beyond a reasonable doubt.3 The conviction is supported by sufficient evidence. .
The elements of carrying a concealed weapon are (1) the defendant knowingly carried a ■
firearm and (2) the firearm was concealed on the person. M Grim JI 11.1.. A firearm is
concealed if there is “some kind of withdrawal from observation so as to hide or secrete an
object.” People v Kincade, 61 Mich App 498, 504; 233 NW2d 54 (1975). McKenzie testified
that she went to Britt’s house to buy 'cocaine and defendant was there. Jones testified that
defendant said he had a gun with him when he opened the door for McKenzie. According to
McKenzie, she went to a store with defendant. McKenzie testified that she did not see a gun
until after she heard the gunshot while she was fighting with Ashley. Viewing this evidence in a
fight most- favorable to the prosecution, a rational trier of fact could have found that the
prosecutor proved the elements of carrying a concealed weapon beyond a reasonable doubt
Cline, 276 Mich App at 642. The conviction is supported by sufficient evidence.
The elements of felony-firearm are that “the defendant possessed a firearm during the
commission of, or the attempt to commit, a felony.” People v Avant, 235 Mich App 499; 597
NW2d 864 (1999); MCL 750.227b. Viewing the evidence that supports the convictions of
second-degree murder, assault with intent to commit murder, domestic assault, and felon-inpossession of a firearm in a fight most favorable the prosecution, a rational trier of fact could ■
have found that the prosecutor proved the elements of felony-firearm beyond a reasonable doubt.
Cline, 276 Mich App at 642. The conviction is supported by sufficient evidence.
Defendant next argues in his Standard 4 brief that he is entitled to a new trial because the
cumulative effect of the errors identified in the brief that occurred 'during pretrial proceedings
and at trial denied him a fair trial. “While it is possible that the cumulative effect of a number of
errors may constitute error requiring reversal, only actual errors are aggregated to determine their
cumulative effect.” People v Rice (On Remand), 235 Mich App 429, 448; 597 NW2d 843
' (1999) (quotation marks and citations omitted). Because defendant has not established any
actual errors, no cumulative effect of errors denied defendant a fair trial. Id.
■ In his Standard 4 brief, defendant also argues that he was denied effective assistance of
appellate counsel because appellate counsel failed to raise the issues that he asserts in hisStandard 4 brief.4 The test for ineffective-assistance of appellate counsel is the same as the test

3 “The prosecutor must prove that the defendant’s right to possess a firearm has not been restored
only if the defendant produces some evidence that his right has been restored.” People v
Perkins, 262 Mich App 267, 271; 686 NW2d 237 (2004), affd 473 Mich 626 (2005), and
clarified on other grounds People v Smith-Anthony, 494 Mich 669, 682 (2013). Defendant did
not present any evidence that his right to possess a firearm had been restored.
4 In his supplemental Standard 4 brief, defendant repeats the argument that appellate counsel was
ineffective for failing to raise the issue that-the trial court’s refusal to adjourn trial after he
retained counsel resulted in a violation of his right to be represented by. counsel of his own
choice.
-9--

£

)

pssrMiStsl

608 NW2d 502 (2000) (stating that counsel is not required fo advocate '
'
'
a meritless position).

.

1:1
STipplemental Standard 4 brief, defendant argues that he was denied due process
b cause the taal court sat as both the district court and the circuit court. We review this
unpreserved claim of error for plain error affecting substantial rights. Corines, 460 MicL 761

dStndL?sftht f7/

nt7 t0 T8'51 ^ tMs Plm °f “O110®1®* jurisdiction violates a

“dsoSh aiyt I*”~

d“ 123 Med 10 3hw

error.

Defendant next argues in his snppfcmental Standard 4 brief that the trial court ared in
re sing to recuse itself from proceedings regarding his motion for a new trial, which was based
f
°f
assistance of counsel. Although defendant provides law regarding
hsquahrication, die issue is abandoned, hr his argument, defendant does not arSculfte any
?™d
W ft f C0UIt
^‘luahfied from presiding over further proceedings. He hal
PeopirJfcnvTl
“Tiff baSiS “d raiionaIize *e legal basis for the darn. See
ople v Kelly, 231 Mich App 627, 640-641; 588 NW2d 480 (1998) (“An appellant may not
S IT”
P°Sltl0n mi leaVe “t0
C»urt to discover and rationale the bash for

held .on January 22,. 2015, after it received a number of letters &om defendant in which
defendant compiamed of appellate counsel’s representation. At the hearing the’trial court
Se
f .dant’! C°mplaintS was &at he ^ not have a copy of the transcripts
^f
^ :t iad asted its secretary to mail a copy of the transcripts to
1 ^ J^
he had
other complaints. Defendant replied, “Basically
that s really ah. It is settled that error requiring reversal may only be predicated on the trial
ourt s actions and not upon alleged error to which the aggrieved party contributed by plan or
negligence.. Lewis v LeGrow, 258 Mich App 175, 210; 670 NW2d 675 (2003).
By stating that
he had no other complaints regarding appellate counsel, defendant contributed to
any error that

-10- '

k

7

4

)

the trial court made in not addressing his request for substitute appellate counsel. Accordingly,
defendant is not entitled to any relief for the alleged error.
Finally, in his*supplemental Standard-4 brief, defendant argues that he was denied the
right to be tried by a jury drawn from a fair cross section of the community. We review this
unpreserved claim of error for plain error affecting substantial rights, Corines, 460 Mich at 763.
The Sixth Amendment right to jury includes the right to an impartial jury drawn from a
fair cross section of the community. People v Bryant, 491 Mich 575, 595; 822 NW2d 124
(2012). To establish a prim a facie violation of the fair-cross-section requirement, a defendant
' must establish the following:
(1) that the group alleged to be excluded is a “distinctive” group in the
community; (2) that the representation of this group in venires from which juries
are selected is not fair and reasonable in relation to the number of such persons in
the community; and (3) that this underrepresentation is due to systematic
exclusion of the group in the jury-selection process. [Duren v Missouri, 439 US
357, 364; 99 S Ct 664; 58 L Ed 2d 579 (1979).]
Defendant mates no argument that applies the three prongs of the Duren test to the present case.
Accordingly, he fails to establish plain error. Corines, 460 Mich at 763.
We affirm defendant’s convictions, but we remand for correction of the judgment of
sentence. We do not retain jurisdiction.

Is/ Peter D. O'Connell
• /s/ Jane E. Markey
/s/ Christopher M. Murray ■

5 Defendant argues'that he was denied a fair trial by the cumulative effect of the trial court’s
errors in acting as both the district court and the circuit court, denying his motion to recuse itself
from further proceedings, refusing to provide defendant with copies of the transcripts and court
documents, failing to hear his motion for substitute appellate counsel, and denying an
adjournment after he retained counsel. However, because defendant fails to establish that anyerror occurred, the argument is without merit. See Dobek, 274 Mich App at 106.
-11-'

¥•'.

A

4

1
s

* I

*

:

f
I ^ *13 j, *1

\k

A

■ f

1

:

1

\

$■

r

■

i.
■*v'

*

4
m:

■J.

^■' .1

I

V

t.

. -.:i

M

,

•i-

J '

'• T<r '

R*

<*f*r' '

X

■"!

i

”*/'

1
jt %i* i

( 4

*-.. '

*

vi

v

i

*
ii

3V
:•

i

/ .

f •■ r -?

iOV- ’ •

r vff'V

.. m

'.*

-f

' -Vcl !£*»«

1

1

J

AT’FSmMv: - ■£
r

- "’2., 2}1** .v ■« i«# '»v. 1 ’,js
<3 »
■izmut'Lj uid ,i •? ^GVU.D, •^c.u-r .-.’t
•-.'••*

>, in. tl's

j'

T.H

s*".

t !.■

.».

.(> » •

^

»

-

■

r

?

i

< *.

JS

J

I!

i •

t:
t

3

A
3

'1

:i

A

t
i
i

■i
.ii

■>

*4■*

'“.

’

.a

• .v i vu-

0 ■

< !* '>s *.
'. ..

z'r'

-f V r- d. c»*~
~

■ i

I

I-

1 j

<" i **.y

r v*it

*

.;;r

:
1

I

1

. AypENbU- - 3
lAot-Ve4 SVa4'&S ^bts-Vf lcrV ‘GomHr,

4-he. Ecishzcn b^s-VnoV

O-P Mich't^-OwQ y^udjy^&'rl'*

k

k

k

Case 2:18-cv-10391-TGB-RSW ECF No. 11 filed 04/30/19

PagelD.3038

Page 1 of 2

)

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
JOVON C. DAVIS,

Petitioner,
Case No. 18-10391

v.

Hon. Terrence G. Berg
WILLIS CHAPMAN,

Respondent.

JUDGMENT
In accordance with the opinion and order issued on this date,
DENYING the Petition for a Writ of Habeas Corpus;
It is ORDERED AND ADJUDGED that the case be dismissed and
judgment entered in favor of Respondent.
Dated at Detroit, Michigan: April 30, 2019

DAVID J. WEAVER
CLERK OF THE COURT
s/A. Chubb
Case Manager and Deputy Clerk

£

■$

Case 2:18-cv-10391-TGB-RSW ECF No. 11 filed 04/30/19
)

P,agelD.3039

Page 2 of 2

)

APPROVED:
s/Terrence G. Berg___________
HON. TERRENCE G. BERG
UNITED STATES DISTRICT JUDGE

k

k

$

:k

APP6N&* - M
Uin \4-ed S^-ccV&S (LducV
SiKih

q£

ftppejoAs ■, p0p

(L.ircuu+ 5uAwnfcM-

£

Case: 19-1540

Document: 19-2

Filed: 05/06/2020

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: May 06, 2020

Jovon C. Davis
Thumb Correctional Facility
3225 John Conley Drive
Lapeer, MI 48446
Re: Case No. 19-1540, Jovon Davis v. Willis Chapman
Originating Case No.: 2:18-cv-10391
Dear Mr. Davis,
The Court issued the enclosed Order today in this case.
Sincerely yours,
s/Beverly L. Harris
En Banc Coordinator
Direct Dial No. 513-564-7077
cc: Mr. Linus Richard Banghart-Linn
Enclosure

\

(2 of 2)

Case: 19-1540

Document: 12-1

Filed: 12/04/2019

Page: 1

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT
100 EAST FIFTH STREET, ROOM 540
POTTER STEWART U.S. COURTHOUSE
CINCINNATI, OHIO 45202-3988

Deborah S. Hunt
Clerk

Tel. (513) 564-7000
www.ca6.uscourts.gov

Filed: December 04, 2019

Mr. Linus Richard Banghart-Linn
Office of the Attorney General
of Michigan
P.O.Box 30217
Lansing, MI 48116
Mr. Jovon C. Davis
Thumb Correctional Facility
3225 John Conley Drive
Lapeer, MI 48446
Re: Case No. 19-1540, Jovon Davis v. Willis Chapman
Originating Case No. : 2:18-cv-10391
Mr. Davis and Counsel,
The Court issued the enclosed order today in this case.
Sincerely yours,
s/Cheryl Borkowski
Case Manager
Direct Dial No. 513-564-7035
cc: Mr. David J. Weaver
Enclosure
No mandate to issue

(1 of 5)

Case: 19-1540

Document: 12-2

Filed: 12/04/2019

Page: 1

No. 19-1540

FILED

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JOVON C. DAVIS,
Petitioner-Appellant,
v.
WILLIS CHAPMAN, Warden,
Respondent-Appellee.

(2 of 5)

)
)
)
)
)
)
)
)
)

Dec 04, 2019
DEBORAH S. HUNT, Clerk

ORDER

Jovon C. Davis, a Michigan state prisoner, moves for a certificate of appealability and in
forma pauperis status on appeal from a district court decision denying his petition for a writ of
habeas corpus, filed pursuant to 28 U.S.C. § 2254.
In 2014, a jury convicted Davis of second-degree murder, assault with intent to murder,
commission of a felony with a firearm, domestic violence, carrying a concealed weapon, and being
a felon in possession of a firearm. He was sentenced to 52 to 102 years of imprisonment. His
conviction was affirmed in the state courts.
In this petition for federal habeas corpus relief, Davis argued that the state court erred in
failing to address his motion for substitution of appellate counsel, denying a continuance for him
to retain an attorney of his choice, endorsing a witness the day before trial and denying a
continuance on that ground, and refusing to recuse. He also raised numerous claims of ineffective
assistance of counsel, complained that he was convicted by a jury containing no African
Americans, and claimed that he had been denied transcripts to appeal. The district court examined
each claim on the merits in a thorough opinion and denied the petition.

Case: 19-1540

Document: 12-2

Filed: 12/04/2019

Page: 2

No. 19-1540
-2To obtain a certificate of appealability, Davis must show that reasonable jurists could
debate whether the petition should have been resolved in a different manner. See Slack v.
McDaniel, 529 U.S. 473, 484 (2000).
Because the state court reviewed the claims on the merits, the district court reviewed that
decision to determine whether it was contrary to or an unreasonable application of clearly
established federal law. See Renico v. Lett, 559 U.S. 766, 773 (2010).
In his first claim, Davis argued that his motion for substitution of appellate counsel was
not addressed. However, the record showed that the court held a hearing on the issue and
determined that Davis would be satisfied if he was given a copy of the transcripts to file his own
brief. Davis agreed with this resolution of the issue.
In his second claim, Davis argued that he was denied effective assistance of counsel when
the trial court denied him a continuance to retain counsel of his choice. The district court found
that the state court had properly applied pertinent factors in determining that the motion was
correctly denied where it was made on the eve of trial, Davis and counsel had only differences of
opinion and not a lack of communication, and he had previously received a continuance and a
second appointed counsel. See United States v. Sullivan, 431 F.3d 976, 981-82 (6th Cir. 2005)
(affirming denial where no conflict required substitution); United States v. Trujillo, 376 F.3d 593,
606-07 (6th Cir. 2004) (affirming denial of untimely motion).

Moreover, the district court

examined the record and determined that the second appointed attorney rendered effective
assistance, and Davis therefore could not establish prejudice. See United States v. Vasquez, 560
F.3d 461, 468 (6th Cir. 2009).
The third claim was that the trial court should have granted an adjournment when the
prosecutor learned of a new witness, a jail informant, four days before trial. The state court found
that the parties resolved the matter by agreeing that the witness would not be called until the end
of the several-day trial. The district court also reviewed the record and concluded that counsel
effectively cross-examined the witness.

(3 of 5)

Case: 19-1540

Document: 12-2

Filed: 12/04/2019

)

No. 19-1540
-3 -

1

Page: 3

The fourth claim argued that the trial judge should have recused himself. However, the
only arguments on this ground were that the judge ruled against Davis on several issues, so his
claim did not represent the type of extreme case where disqualification would be constitutionally
required. See Getsy v. Mitchell, 495 F.3d 295, 311 (6th Cir. 2007).
Several claims of ineffective assistance of counsel were raised, arguing that counsel failed
to: 1) investigate issues such as the victim’s expertise in martial arts and the jail informant’s
background; 2) present a complete defense by not consulting with Davis prior to trial and not
investigating the witnesses; 3) call witnesses; 4) cross-examine witnesses; 5) object to testimony;
6) hire an investigator; and 7) object to the prosecutor’s closing argument. Davis was required to
show that counsel’s performance was deficient and that the result of the trial was prejudiced. See
Strickland v. Washington, 466 U.S. 668, 687 (1984). The district court concluded that the state
court’s finding that counsel actively represented Davis at trial was not contrary to or an
unreasonable application of clearly established law. Counsel filed a motion to suppress the
statement Davis made to police, engaged in plea negotiations, moved for a continuance, argued
self-defense, and moved for a directed verdict. Counsel did introduce evidence that the murder
victim was a martial arts fighter. Davis did not show how additional consultation with counsel
could have altered the outcome of the trial. See Bowling v. Parker, 344 F.3d 487, 506 (6th Cir.
2003). Davis provided no affidavits from character witnesses that he alleged counsel should have
called. His claim that counsel should have conducted further cross-examination was purely
speculative. The district court found that the state court reasonably found that trial counsel’s
strategy of not repeatedly objecting to evidence where the court had already ruled against him was
not ineffective assistance. The claim that an investigator should have been hired was also
speculative. Finally, the prosecutor’s closing argument was based on inferences supported by the
evidence and an objection would have been meritless. Reasonable jurists therefore could not
disagree with the district court’s conclusion that the state court reasonably rejected conclusory
allegations of ineffective assistance lacking in any evidentiary support. See Workman v. Bell, 178
F.3d 759, 771 (6th Cir. 1998).

(4 of 5)

Case: 19-1540

Document: 12-2

Filed: 12/04/2019

Page: 4

)

No. 19-1540
-4Next, Davis argued that there were no African Americans on his jury. Reasonable jurists
could not disagree with the district court’s acceptance of the state court’s decision that Davis made
no showing of systemic exclusion under Duren v. Missouri, 439 U.S. 357, 364 (1979). The
absence of African Americans on this particular jury was insufficient to grant habeas relief.
Lastly, Davis argued that he was denied transcripts needed to prepare his pro se brief on
appeal. Reasonable jurists could not disagree with the district court’s acceptance of the state
court’s decision that Davis had no constitutional right to represent himself on direct appeal where
he was already appointed counsel. See Martinez v. Court ofAppeal of Cal., 528 U.S. 152, 163
(2000); McMeans v. Brigano, 228 F.3d 674, 684 (6th Cir. 2000). Moreover, Davis did receive a
copy of the transcripts.
On this record, reasonable jurists would not debate the district court’s conclusion that the
state court’s factual determinations were not unreasonable and that its decision was not contrary
to or an unreasonable application of clearly established Supreme Court precedent. See Schriro v.
Landrigan, 550 U.S. 465, 473 (2007); Robins v. Fortner, 698 F.3d 317, 328 (6th Cir. 2012).
The motion for a certificate of appealability is therefore DENIED. The motion for in forma
pauperis status is DENIED as moot.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

(5 of 5)

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.2993 Filed 04/30/19 Page 1 of 45

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF MICHIGAN
SOUTHERN DIVISION
JOVON C. DAVIS,
Petitioner,
Case No. 18-10391
Hon. Terrence G. Berg

v.

WILLIS CHAPMAN,
Respondent.
OPINION AND ORDER DENYING THE PETITION FOR A WRIT
OF HABEAS CORPUS
Jovon C. Davis,

(“Petitioner”), incarcerated at the Thumb

Correctional Facility in Lapeer, Michigan, filed a pro se petition for a writ
of habeas corpus pursuant to 28 U.S.C. § 2254, challenging his
convictions for second-degree murder, Mich. Comp. Laws § 750.317;
assault with intent to commit murder, Mich. Comp. Laws § 750.83; felon
in possession of a firearm, Mich. Comp. Laws § 750.224f; carrying a
concealed weapon, Mich. Comp. Laws § 750.227; felony-firearm, Mich.
Comp. Laws § 750.227b, and domestic, violence, third-offense, Mich.
Comp. Laws § 750.81(4). For the reasons stated below, the petition for a
writ of habeas corpus is DENIED.

1

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.2994 Filed 04/30/19 Page 2 of 45

I. Background
Petitioner was convicted following a jury trial in the Berrien County
Circuit Court.1 This Court recites verbatim the relevant facts relied upon
by the Michigan Court of Appeals, which are presumed correct on habeas
review pursuant to 28 U.S.C. § 2254(e)(1). See Wagner v. Smith, 581 F.3d
410, 413 (6th Cir. 2009):
Defendant’s convictions arise out of the murder of Gary
Alilovich and the assault of Heather Britt on January 18,
2013, at the house of Crystal McKenzie in Benton Harbor.
**********************************************,<.*,1.*******

Britt testified that she and defendant had been dating “off and
on” for six years and that they lived together. On January 18,
2013, Britt and Alilovich, whom Britt had previously dated,
were at McKenzie’s house. McKenzie testified that after she
and defendant arrived, defendant started to hit Britt in the
face with his hands after she pushed him. Alilovich, using
words only, tried to stop defendant. Defendant pushed
Alilovich, and then started to hit Britt in the face with his
fists. Alilovich tried to stop defendant again, telling defendant
to “get the fuck back.” McKenzie did not see Alilovich with a
knife. According to McKenzie, while she was in the kitchen
fighting with Ashley Davis, defendant’s cousin, she heard a
gunshot in a bedroom. She ran toward the bedroom, and saw
1 Petitioner was originally charged with open murder on the murder count. Under
Michigan law, the charge of open murder gives a circuit court jurisdiction to try a
defendant on first- and second-degree murder charges. See Taylor v. Withrow, 288
F.3d 846, 849 (6th Cir. 2002); see also Williams u. Jones, 231 F. Supp. 2d 586, 589
(E D. Mich. 2002) (citing Mich. Comp. Laws § 750.316, 750.318; People v. McKinney,
237 N.W.2d 215, 218 (1975)).

2

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.2995 Filed 04/30/19 Page 3 of 45

defendant pointing a gun at Alilovich. Alilovich was on his
knees and begging defendant not to shoot. McKenzie ran out
of the bedroom after she saw defendant take a second shot at
Alilovich. McKenzie heard a third gunshot when she was
outside. Britt’s young son, who was in another bedroom,
testified that he heard two gunshots and then Alilovich say
“please don’t do this.” He then heard two more gunshots.
According to her son, Britt came into the bedroom; her left
chest was bleeding. Defendant also came into the bedroom
and started to hit Britt in the face. He then stomped on her
face more than once.
Dr. Robert Clark, qualified as an expert in pathology,
performed an autopsy on Alilovich. Clark testified that
Alilovich had gunshot wounds to the back of his right elbow,
the back of his right shoulder, and his head. Clark opined that
the cause of death was exsanguination from a gunshot wound
to the chest. Alilovich had no wounds that suggested he had
been in a fight. Dr. Glen Hastings, qualified as an expert in
general and trauma surgery, treated Britt in the emergency
room. Hastings testified that Britt had a concussion, four or
five fractured ribs on each side of her chest, fractures in the
lumbar spine, a fracture of the right orbital bone, and five
gunshot wounds, including one to her left breast.
Three bullets were recovered from Alilovich’s body, and two
were recovered from the bedroom where defendant had
stomped on Britt’s face. Lieutenant Jeff Crump, qualified as
an expert in firearms and tool mark identification, testified
that he compared the five bullets to test shots from the .32caliber revolver that was found in the woods. Crump
identified four of the five bullets as having been fired from the
revolver, and he could not exclude the revolver as having fired
the fifth bullet. The revolver was silver with a black handle,
and Britt had previously seen defendant with a silver .32caliber revolver with a black handle. In his interview,
defendant told two detectives that he shot Alilovich two times.
According to Jones, defendant said that after his family
3

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.2996 Filed 04/30/19 Page 4 of 45

members arrived, he and Alilovich had more words. He then
pulled out the gun and shot Alilovich twice and Britt once.
People v. Davis, No. 320773, 2016 WL 1125669, at *1, 8 (Mich. Ct.
App. Mar. 22, 2016).
Petitioner’s conviction was affirmed on appeal. Id., reconsideration
den. No. 320773 (Mich. Ct. App. May 27, 2016); Iv. den. 500 Mich. 933,
889 N.W.2d 490 (2017); reconsideration den. 500 Mich. 1004, 895 N.W.2d
519 (2017).
Petitioner seeks a writ of habeas corpus on the following grounds:
I. Petitioner was denied his Sixth and Fourteenth
Amendment rights guaranteed under the U.S. Constitution,
and Michigan Constitution of 1963, Art I, §20; where the trial
court abused its discretion by failing to hear Petitioner’s
motion for substitution of appellate counsel.
II. Petitioner was denied his Sixth Amendment right under
the U.S. Constitution where trial court refused to adjourn his
case once new counsel was obtained.
III. Petitioner was denied his Sixth and Fourteenth
Amendment rights under the U.S. Constitution to a fair trial
and due process where trial court abused its discretion when
endorsing a late witness and denying petitioner adjournment
to prepare an effective cross-examination.
IV. Petitioner was denied his Fourth and Fourteenth
Amendment rights, and Michigan Constitution of 1963 Art. I,
§17, where the trial court abused its discretion in denying
petitioner’s motion for disqualification or recusal of the judge.
V. Petitioner was denied his Sixth Amendment right
guaranteed under the U.S. Constitution to effective
4

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.2997 Filed 04/30/19 Page 5 of 45

assistance of counsel where counsel failed to investigate
several aspects of the case and instead relied on government’s
good faith, which is contrary to Strickland v. Washington and
its progeny.
VI. Petitioner was denied his Sixth and Fourteenth rights
guaranteed under the U.S. Constitution to effective
assistance of counsel where counsel denied Petitioner a
meaningful opportunity to present a complete defense.
VII. Petitioner was denied his Sixth Amendment right
guaranteed under the U.S. Constitution to effective
assistance of trial counsel where counsel of record failed to
present a defense and properly investigate any potential
witnesses for his defense.
VIII. Petitioner was denied his Sixth Amendment right
guaranteed under the U.S. Constitution where he was denied
a fair-cross section of jury selection at trial, thereby denying
him due process and equal protection of law.
IX. Petitioner was denied his Sixth Amendment right
guaranteed under the U.S. Constitution to effective
assistance of counsel on appeal as of right where counsel
denied Petitioner access to the courts and judicial review.
II. Standard of Review
28 U.S.C. § 2254(d), as amended by The Antiterrorism and Effective
Death Penalty Act of 1996 (AEDPA), imposes the following standard of
review for habeas cases:
An application for a writ of habeas corpus on behalf of a
person in custody pursuant to the judgment of a State court
shall not be granted with respect to any claim that was
adjudicated on the merits in State court proceedings unless
the adjudication of the claim—
5

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.2998 Filed 04/30/19 Page 6 of 45

(1) resulted in a decision that was contrary to, or
involved an unreasonable application of, clearly
established Federal law, as determined by the
Supreme Court of the United States; or
(2) resulted in a decision that was based on an
unreasonable determination of the facts in light of
the evidence presented in the State court
proceeding.
A decision of a state court is “contrary to” clearly established federal
law if the state court arrives at a conclusion opposite to that reached by
the Supreme Court on a question of law or if the state court decides a
case differently than the Supreme Court has on a set of materially
indistinguishable facts. Williams v. Taylor, 529 U.S. 362, 405-06 (2000).
An “unreasonable application” occurs when “a state court decision
unreasonably applies the law of [the Supreme Court] to the facts of a
prisoner’s case.” Id. at 409. A federal habeas court may not “issue the writ
simply because that court concludes in its independent judgment that the
relevant state-court decision applied clearly established federal law
erroneously or incorrectly.” Id. at 410-11.
The Supreme Court explained that “[A] federal court’s collateral
review of a state-court decision must be consistent with the respect due
state courts in our federal system.” Miller-El v. Cockrell, 537 U.S. 322,
340 (2003). The “AEDPA thus imposes a ‘highly deferential standard for
evaluating state-court rulings,’ and ‘demands that state-court decisions
be given the benefit of the doubt.’” Renico v. Lett, 559 U.S. 766, 773 (2010)
6

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.2999 Filed 04/30/19 Page 7 of 45

(quoting Lindh v. Murphy, 521 U.S. 320, 333, n. 7 (1997); Woodford v.
Viscotti, 537 U.S. 19, 24 (2002) (per curiam)). “[A] state court’s
determination that a claim lacks merit precludes federal habeas relief so
long as ‘fairminded jurists could disagree’ on the correctness of the state
court’s decision.” Harrington u. Richter, 562 U.S. 86, 101 (2011) (citing
Yarborough u. Alvarado, 541 U.S. 652, 664 (2004)). Therefore, in order to
obtain habeas relief in federal court, a state prisoner is required to show
that the state court’s rejection of his claim “was so lacking in justification
that there was an error well understood and comprehended in existing
law beyond any possibility for fairminded disagreement.” Harrington,
562 U.S. at 103. A habeas petitioner should be denied relief as long as it
is within the “realm of possibility” that fairminded jurists could find the
state court decision to be reasonable. See Woods v. Etherton, 136 S. Ct.
1149, 1152 (2016).

III. Discussion
A. Exhaustion and Procedural Default
Respondent argues in his answer that several of Petitioner’s
ineffective assistance of counsel sub-claims have not been exhausted in
the state courts. Respondent further argues that petitioner’s fourth and
eighth claims are procedurally defaulted because he failed to preserve
them at the state court level.

7

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3000 Filed 04/30/19 Page 8 of 45

A habeas petitioner’s failure to exhaust his state court remedies
does not deprive a federal court of its jurisdiction to consider the merits
of the habeas petition. Granberry v. Greer, 481 U.S. 129, 131 (1987). An
unexhausted claim may be adjudicated by a federal court on habeas
review if the unexhausted claim is without merit, such that addressing
the claim would be efficient and would not offend the interest of federalstate comity. Prather u. Rees, 822 F.2d 1418, 1422 (6th Cir. 1987); see also
28 U.S.C. § 2254(b)(2) (habeas petition may be denied on the merits
despite the failure to exhaust state court remedies).
Likewise, procedural default is not a jurisdictional bar to review
of a habeas petition on the merits. See Trest v. Cain, 522 U.S. 87, 89
(1997). “[Fjederal courts are not required to address a procedural-default
issue before deciding against the petitioner on the merits.” Hudson v.
Jones, 351 F.3d 212, 215 (6th Cir. 2003) (citing Lambrix v. Singletary,
520 U.S. 518, 525 (1997)). “Judicial economy might counsel giving the
[other] question priority, for example, if it were easily resolvable against
the habeas petitioner, whereas the procedural-bar issue involved
complicated issues of state law.” Lambrix, 520 U.S. at 525.
Petitioner’s claims are meritless. Regardless of whether the claims
have been properly exhausted and/or are procedurally defaulted, they fail
on their own merit.

8

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3001 Filed 04/30/19 Page 9 of 45

B. Claim 1: Substitution of Appellate Counsel
Petitioner first argues that the trial court judge abused his
discretion by failing to conduct an adequate hearing on petitioner’s
motion to substitute appellate counsel.2
The Michigan Court of Appeals rejected petitioner’s claim:
Defendant also argues in his supplemental Standard 4 brief
that the trial court erred in failing to address his request for
substitute appellate counsel. In a November 2014 letter,
defendant requested that he be appointed new appellate
counsel. The trial court called a hearing, held on January 22,
2015, after it received a number of letters from defendant, in
which defendant complained of appellate counsel’s
representation. At the hearing, the trial court recalled that
one of defendant’s complaints was that he did not have a copy
of the transcripts. The trial court told defendant that it had
asked its secretary to mail a copy of the transcripts to
defendant. It then asked defendant if he had any other
complaints. Defendant replied, “Basically that’s really all.” “It
is settled that error requiring reversal may only be predicated
on the trial court’s actions and not upon alleged error to which
the aggrieved party contributed by plan or negligence.” Lewis
v. LeGrow, 258 Mich.App 175, 210; 670 NW2d 675 (2003). By
stating that he had no other complaints regarding appellate
counsel, defendant contributed to any error that the trial
court made in not addressing his request for substitute
appellate counsel. Accordingly, defendant is not entitled to
any relief for the alleged error.
2 Petitioner raised this claim as well as most, if not all, of his claims in several pro se
appellate briefs that he filed in addition to the brief filed by appellate counsel.
Standard 4 of Administrative Order 2004-6, 471 Mich, cii (2004), “explicitly provides
that a pro se brief may be filed within 84 days of the filing of the brief by the
appellant’s counsel, and may be filed with accompanying motions.” Ware v. Harry,
636 F. Supp. 2d 574, 594, n. 6 (E.D. Mich. 2008).

9

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3002 Filed 04/30/19 Page 10 of 45

People v. Davis, 2016 WL 1125669, at *11 (internal footnote omitted).
In reviewing a motion for substitution of counsel, a reviewing court
should consider “the timeliness of the motion; the adequacy of the [trial]
court’s inquiry into the defendant’s complaint; and the asserted cause for
that complaint, including the extent of the conflict or breakdown in
communication between lawyer and client (and the client’s own
responsibility, if any, for that conflict).” Martel v. Clair, 565 U.S. 648, 663
(2012). “Because a trial court’s decision on substitution is so fact-specific,
it deserves deference; a reviewing court may overturn it only for an abuse
of discretion.” Id. at 663-64.
Although all of the federal circuit courts agree that a court “cannot
properly resolve substitution motions without probing why a defendant
wants a new lawyer[,]” Martel, 545 U.S. at 664, the Supreme Court in
Martel did not require, as a matter of federal constitutional law, that a
trial court must engage in an inquiry with a criminal defendant
concerning the nature of his complaints against counsel before denying a
motion for substitution. The Supreme Court in Martel held that a federal
district court did not abuse its discretion in denying a habeas petitioner’s
motion for substitution of counsel without first conducting an inquiry into
the nature of his complaints, where the motion was untimely and the
court was ready to render a decision in that case. Id. at 664-66. Therefore,
there is no clearly established federal law requiring an inquiry by the
10

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3003 Filed 04/30/19 Page 11 of 45

trial judge into the nature of a defendant’s dissatisfaction with his
counsel prior to denying a motion for substitution of counsel. See James
v. Brigano, 470 F.3d 636, 643 (6th Cir. 2006) (reversing a grant of relief
because the inquiry requirement was not clearly established Federal
law). In the absence of a showing that a habeas petitioner received the
ineffective assistance of counsel at trial, a state trial judge’s failure to
inquire into a habeas petitioner’s complaints against his counsel before
denying a motion for substitution of counsel would not entitle the
petitioner to habeas relief. See Peterson v. Smith, 510 F. App’x 356, 36667 (6th Cir. 2013).
In the present case, the trial court judge conducted a hearing on
petitioner’s motion for substitute appellate counsel, with appellate
counsel, petitioner, and the prosecutor present. Transcript, ECF 7-16
PagelD. 1554-56.3 Appellate counsel indicated he was the second
attorney appointed for petitioner after another attorney declined to
accept the appointment. Appellate counsel informed the judge that he
had filed the appellate brief with the Michigan Court of Appeals and was
awaiting a response from the prosecutor. Id. at PagelD. 1553-54. The
judge noted that he had received a number of letters from petitioner, but

3 Although unclear, petitioner and appellate counsel may have been appearing at the
hearing via teleconference and not in person. At one point, the judge asks petitioner
“Are you still there?” suggesting that petitioner was participating in the hearing by
telephone. PagelD. 1554. At another point, the judge refers to Daniel Rust, appellate
counsel, as being on the phone. PagelD. 1557.

11

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3004 Filed 04/30/19 Page 12 of 45

that petitioner’s main complaint appeared to be that appellate counsel
had not provided him with the trial transcripts. The judge explained that
appellate counsel
needed the transcripts to perfect the appeal, indicated
i
that he would have his secretary provide petitioner with a copy of the
transcripts, and noted that petitioner had wanted his appeal filed and
wanted a copy of the transcripts. Id. at PageID.1555. The judge then
asked: “Is there anything else we can help you with?” Id. Petitioner
replied: “Basically that’s really all. I mean minor things like—I don’t
know—I don’t know how things go.” Id. The trial court judge provided
petitioner with an opportunity to address his issues concerning appellate
counsel, Daniel Rust.
The judge extensively and thoroughly addressed petitioner’s
concerns regarding his appellate counsel. Petitioner indicated that his
primary concern was obtaining the transcripts so that he could file his
own pro se appellate brief. Petitioner did not indicate that he had any
other complaints with appellate counsel. The Michigan Court of Appeals’
conclusion that the trial judge’s denial of petitioner’s motion to substitute
appellate counsel did not violate his Sixth Amendment rights was
therefore not an unreasonable application of federal law. Petitioner is not
entitled to federal habeas relief on his first claim. See Henness v. Bagley,
644 F.3d 308, 322 (6th Cir. 2011).

12

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3005 Filed 04/30/19 Page 13 of 45

C. Claim 2: Denial of Counsel of Choice
Petitioner next alleges that he was denied his right to the counsel
of his choice when the judge refused to adjourn his trial after petitioner
had retained an attorney to replace his second court-appointed counsel.
The Michigan Court of Appeals rejected petitioner’s claim:
The trial court’s denial of defendant’s request for an
adjournment did not deny defendant a fair opportunity and
reasonable time to retain counsel of his own choice. Defendant
was arraigned on January 22, 2013, but he did not retain
counsel until just before the trial that began January 14,
2014. Additionally, trial had already been adjourned twice.
The second adjournment was because the trial court granted
defendant’s request to remove his first appointed counsel.
Notably, defendant did not seek retained counsel after his
first attorney withdrew. He waited seven weeks, until the eve
of trial. Retained counsel then requested an adjournment of
at least four months even though the case did not present any
complex issues. While defendant did not want his appointed
replacement defense counsel to represent him, he made no
specific claim that this counsel was unprepared, incompetent
to try the case, or that he and counsel had irreconcilable
differences. Under these circumstances, the trial court’s
denial of an adjournment fell within the range of reasonable
and principled outcomes. Defendant was not denied his Sixth
Amendment right to be represented by an attorney of his
choice.
People v. Davis, 2016 WL 1125669, at *4.
The Sixth Amendment right to the assistance of counsel does not
guarantee a criminal defendant that he will be represented by a
13

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3006 Filed 04/30/19 Page 14 of 45

particular attorney. Serra v. Michigan Department of Corrections, 4 F.3d
1348, 1351 (6th Cir. 1993) (citing Caplin & Drysdale v. United States, 491
U.S. 617, 624 (1989)). A criminal defendant who has the desire and the
financial means to retain his own counsel “should be afforded a fair
opportunity to secure counsel of his own choice.” Id. (quoting Powell v.
Alabama, 287 U.S. 45, 53 (1932)). Indeed, “[t]he Sixth Amendment
guarantees the defendant the right to be represented by an otherwise
qualified attorney whom that defendant can afford to hire, or who is
willing to represent the defendant even though he is without funds.” U.S.
v. Gonzalez-Lopez, 548 U.S. 140, 144 (2006) (quoting Caplin & Drysdale,
491 U.S. at 624-25). However, while a criminal defendant who can afford
his own attorney has a right to a chosen attorney, that right is a qualified
right. Serra, 4 F.3d at 1348 (citing Wheat v. United States, 486 U.S. 153,
159 (1988)). Stated differently, the right to counsel of one’s own choice is
not absolute. See Wilson v. Mintzes, 761 F.2d 275, 280 (6th Cir. 1985).
Although a criminal defendant is entitled to a reasonable opportunity to
obtain counsel of his choice, the exercise of this right must be balanced
against the court’s authority to control its docket.” Lockett v. Am, 740
F.2d 407, 413 (6th Cir. 1984); see also Gonzalez-Lopez, 548 U.S. at 15152 ( Nothing we have said today casts any doubt -or places any
qualification upon our previous holdings that limit the right to counsel of
choice and recognize the authority of trial courts to establish criteria for
admitting lawyers to argue before them .... We have recognized a trial
14

Case 2.18-CV-10391-TGB-RSW ECF No. 10, PagelD.3007 Filed 04/30/19 Page 15 of 45

court’s wide latitude in balancing the right to counsel of choice against
the needs of fairness, and against the demands of its calendar.”) (internal
citations omitted). Finally, the right to counsel of choice may not be used
to unreasonably delay a trial. See Linton v. Perini, 656 F.2d 207, 209 (6th
Cir. 1981).
As previously discussed when addressing petitioner’s first claim,
supra, a court that has before it a motion to substitute counsel should
consider “the timeliness of the motion; the adequacy of the [trial] court’s
inquiry into the defendant’s complaint; and the asserted cause for that
complaint, including the extent of the conflict or breakdown in
communication between lawyer and client (and the client’s own
responsibility, if any, for that conflict).” Martel v. Clair, 565 U.S. at 663.
Petitioner is not entitled to relief for several reasons. First,
Petitioner’s request for a continuance to substitute in retained counsel
was untimely because it was made on the eve of trial. Petitioner offered
no reasons to the state courts or to this Court why he did not attempt to
retain counsel earlier. The Sixth Circuit has noted that when “the
granting of the defendant’s request [for a continuance to obtain new
counsel] would almost certainly necessitate a last-minute continuance,
the trial judge’s actions are entitled to extraordinary deference.” U.S. v.
Whitfield, 259 F. App’x 830, 834 (6th Cir. 2008) (quoting United States v.
Pierce, 60 F.3d 886, 891 (1st Cir. 1995)). The Sixth Circuit has rejected
similar requests for the replacement of counsel as being untimely. See
15

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3008 Filed 04/30/19 Page 16 of 45

United States v. Trujillo, 376 F.3d 593, 606-07 (6th Cir. 2004) (motion for
substitution of counsel was untimely, coming only three days prior to the
start of the trial); United States v. Jennings, 83 F.3d 145, 148 (6th Cir.
1996) (rtiotion to continue to obtain new counsel untimely when it was
made the day before trial). In the present case, petitioner’s request for a
continuance to substitute in retained counsel on the day of trial was
untimely, particularly where the petitioner had several opportunities
prior to trial to bring his dissatisfaction with his second appointed
counsel to the attention of the trial court. See Whitfield, 259 F. App’x at
834.
Moreover, this Court notes that petitioner had already discharged
his first attorney and sought on the day of trial to discharge his second
counsel and retain what would have been his third attorney. There had
already been delays in the case due to petitioner’s replacement of his first
attorney. Permitting petitioner to discharge his second attorney in order
to hire a third attorney would have led to even further delays, thus, the
trial court did not err in denying petitioner’s request to discharge his
second attorney. See, e.g., United States v. Ammons, 419 F. App’x 550,
552 (6th Cir. 2011).
Petitioner has also failed to establish good cause for the
substitution of counsel where he failed to show that the conflict between
himself and his attorney was so great that it resulted in a total lack of

16

Case 2:18-CV-10391-TGB-RSW ECF No. 10, PagelD.3009 Filed 04/30/19 Page 17 of 45

communication which prevented an adequate defense. See Jennings, 83
F.3d at 149.
Petitioner proceeded to trial with his second court-appointed
attorney. Following trial, petitioner filed for a Ginther hearing4 alleging
that his trial counsel was ineffective and claiming that he was denied his
right to the effective assistance of counsel. The trial court judge
conducted a Ginther hearing and found petitioner’s contentions to be
meritless. In general, the trial court judge found that the length of the
opening and closing arguments, witnesses and experts that were to be
called, and whether to request a jury instruction on involuntary
manslaughter were all within the realm of trial strategy. Transcripts,
ECF No. 7-18, 7-19.
Petitioner was not entitled to substitute counsel because his
complaints against counsel involved differences of opinion regarding trial
strategy and what motions to file rather than any irreconcilable conflict
or total lack of communication. See e.g. Adams v. Smith, 280 F. Supp. 2d
704, 720 (E.D. Mich. 2003). The record in this case does not demonstrate
that the disagreements between Petitioner and his attorney rose to the
level of a conflict sufficient to require the substitution of counsel. See
United States v. Sullivan, 431 F.3d 976, 981 (6th Cir. 2005).

4 “When a defendant asserts that his assigned lawyer is not adequate or diligent . . .
the judge should hear his claim and, if there is a factual dispute, take testimony and
state his findings and conclusion.” People v. Ginther, 212 N.W.2d 922, 924 (1973).

17

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3010 Filed 04/30/19 Page 18 of 45

Finally, Petitioner is unable to show that he was prejudiced by the
failure of the trial court to grant a continuance to allow Petitioner’s
privately-retained counsel to prepare for trial in light of the fact that he
received effective assistance of counsel at trial. See U.S. v. Vasquez, 560
F.3d 461, 468 (6th Cir. 2009). “The strained relationship” between
Petitioner and his attorney was not a “complete breakdown in
communication” that prevented the petitioner from receiving an
adequate defense. Id. Petitioner is not entitled to relief on his second
claim.
D. Claim 3: Late Endorsement
Petitioner next argues that the judge erred in allowing the
prosecutor to call Robert Jones, who was endorsed by the prosecutor as a
witness four days before trial, in violation of Mich. Comp. Laws
§ 767.40a(3), which requires the prosecutor to send to defense counsel a
list of all the witnesses he intends to call no less than 30 days before trial.
Petitioner further argues that the judge erred in refusing to adjourn the
trial so that counsel could have additional time to prepare for Jones’
testimony. Jones was the jail inmate who testified about statements that
petitioner made to him about the shooting after petitioner was placed in
the same jail block as Jones.
It is well-settled that there is no general constitutional right to
discovery in a criminal case. See Weatherford v. Bursey, 429 U.S. 545, 559
18

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3011 Filed 04/30/19 Page 19 of 45

(1977) (denying due process claim of a defendant who was convicted with
aid of surprise testimony from an accomplice who was an undercover
agent); United States v. Presser, 844 F.2d 1275, 1281 (6th Cir.1988)
(citing Weatherford). “It does not follow from the prohibition against
concealing evidence favorable to the accused that the prosecution must
reveal before trial the names of all witnesses who will testify
unfavorably.” Weatherford v. Bursey, 429 U.S. at 559. A claim that a
prosecutor violates a state discovery rule requiring the state to disclose
the names of witnesses it reasonably anticipates calling is not cognizable
on federal habeas review, because it is not a constitutional violation. See
Lorraine v. Coyle, 291 F.3d 416, 439-41 (6th Cir. 2001), opinion corrected
on denial of reh’g, 307 F.3d 459 (6th Cir. 2002). Moreover, a decision
regarding the endorsement of a witness generally constitutes a state law
matter within the trial court’s discretion. See Hence v. Smith, 37 F. Supp.
2d 970, 982 (E.D. Mich. 1999) (citing cases); Whalen v. Johnson, 438 F.
Supp. 1198 (E.D. Mich. 1977) (it is not a fundamental error to permit a
prosecutor to endorse a witness during trial even though the prosecutor
had previously filed an affidavit stating that the witness was not
material). Under Mich. Comp. Laws § 767.40(a)(4), a prosecutor is
permitted to add or delete witnesses from a witness list “at any time upon
leave of the court and for good cause shown or by stipulation of the
parties.”

19

Case 2:18-CV-10391-TGB-RSW ECF No. 10, PagelD.3012 Filed 04/30/19 Page 20 of 45

The Michigan Court of Appeals found that there was good cause to
allow the late endorsement of Jones:
The prosecutor did not learn about Jones and the possibility
of his testifying until four days before trial. She sent a
detective to interview Jones, and it was not until the day
before trial that the prosecutor learned the details of Jones’s
proposed testimony. The late discovery of Jones provided good
cause for the late endorsement.
People v. Davis, 2016 WL 1125669, at *1.
The Michigan Court of Appeals further rejected petitioner’s claim,
by noting that “[t]he prosecutor agreed not to call Jones as a witness until
the end of trial, and there was no dispute that trial would last several
days. Accordingly, defendant had the opportunity to interview Jones.”
People v. Davis, 2016 WL 1125669, at *2. Moreover, although petitioner
alleges that his trial counsel never actually interviewed Jones prior to
him testifying, see ineffective assistance of counsel claims, infra, counsel
did effectively cross-examine Jones. The late endorsement of Mr. Jones
did not prejudice petitioner, because he had an ample opportunity to
cross-examine Mr. Jones and bring out any inconsistencies in his
testimony and his motivations for testifying. See e.g. Warlick v.
Romanowski, 367 F. App’x 634, 644 (6th Cir. 2010). Petitioner is not
entitled to relief on his third claim.

20

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3013 Filed 04/30/19 Page 21 of 45

E. Claim 4: Judicial Disqualification
Petitioner next argues that the trial judge should have recused
himself from Petitioner’s case because of judicial bias.
The Due Process Clause of the Fourteenth Amendment requires a
fair trial in a fair tribunal before a judge with no actual bias against the
defendant or an interest in the outcome of the case. See Bracy v. Gramley,
520 U.S. 899, 904-05 (1997). However, to state a claim that a judge is
biased, a defendant must show either actual bias or the appearance of
bias creating a conclusive presumption of actual bias. United States v.
Lowe, 106 F.3d 1498, 1504 (6th Cir. 1997). “Under this standard, ‘[o]nly
in the most extreme of cases would disqualification on the basis of bias
and prejudice be constitutionally required.’” Getsy v. Mitchell, 495 F.3d
295, 311 (6th Cir. 2007) (quoting Williams v. Anderson, 460 F.3d 789, 814
(6th Cir. 2006)). A judge is required to recuse himself only where he has
actual bias or “a predisposition ‘so extreme as to display clear inability to
render fair judgment.’” Johnson v. Bagley, 544 F.3d 592, 597 (6th Cir.
2008) (quoting Liteky v. United States, 510 U.S. 540, 551 (1994)). In
reviewing a judicial bias claim, a federal habeas court should employ the
initial presumption that the assigned trial judge properly discharged his
official duties. See Johnson v. Warren, 344 F. Supp. 2d 1081, 1093 (E.D.
Mich. 2004).
Petitioner merely points to unfavorable rulings by the judge in
support of his judicial bias claim. The Supreme Court has indicated that
21

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3014 Filed 04/30/19 Page 22 of 45

“judicial rulings alone almost never constitute a valid basis for a bias or
partiality motion.” Liteky, 510 U.S. at 555. “In and of themselves (i.e.,
apart from surrounding comments or accompanying opinion), they
cannot possibly show reliance upon an extrajudicial source; and can only
in the rarest circumstances evidence the degree of favoritism or
antagonism required . . . when no extrajudicial source is involved.” Id.
Federal courts have denied habeas relief on judicial bias claims based
solely on allegations that the judge had ruled adversely against the
petitioner. See Mason u. Burton, 720 F. App’x 241, 242—43 (6th Cir. 2017);
Hardaway v. Burt, No. 16-1666, 2017 WL 2831020, at *4 (6th Cir. Jan.
18, 2017); Cunningham v. Stegall, 13 F. App’x 286, 290 (6th Cir. 2001);
Vliet v. Renico, 193 F. Supp. 2d 1010, 1016 (E.D. Mich. 2002); Hence v.
Smith, 49 F. Supp. 2d 547, 549 (E.D. Mich. 1999). Petitioner is not
entitled to relief on his judicial bias claim.
F. Claims 5, 6 and 7: Ineffective Assistance of Counsel
In his fifth, sixth, and seventh claims, petitioner alleges the
ineffective assistance of trial counsel. Because many of his sub-claims
overlap, the Court consolidates the three claims for analysis.
A defendant must satisfy a two-prong test to establish the denial of
the effective assistance of counsel. First, the defendant must demonstrate
that his attorney’s performance was so deficient that the attorney was
not functioning as the “counsel” guaranteed by the Sixth Amendment.
22

Case 2:18-CV-10391-TGB-RSW ECF No. 10, PagelD.3015 Filed 04/30/19 Page 23 of 45

Strickland v. Washington, 466 U.S. 668, 687 (1984). The defendant must
overcome a strong presumption that counsel’s behavior lies within the
wide range of reasonable professional assistance. Id. Stated differently,
the defendant must overcome the presumption that, under the
circumstances, the challenged action might be sound trial strategy.
Strickland, 466 U.S. at 689. Second, the defendant must show that such
performance prejudiced his defense. Id. To demonstrate prejudice, the
defendant must show that “there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would have
been different.” Strickland, 466 U.S. at 694. The Supreme Court’s holding
in Strickland places the burden on the defendant who raises a claim of
ineffective assistance of counsel, and not the state, to show a reasonable
probability that the result of the proceeding would have been different
but for counsel’s allegedly deficient performance. See Wong v. Belmontes,
558 U.S. 15, 27 (2009).
On habeas review, “the question ‘is not whether a federal court
believes the state court’s determination’ under the Strickland standard
‘was incorrect but whether that determination was unreasonable—a
substantially higher threshold.’” Knowles v. Mirzayance, 556 U.S. Ill
123 (2009) (quoting Schriro v. Landrigan, 550 U.S. 465, 473 (2007)). “The
pivotal question is whether the state court’s application of the Strickland
standard was unreasonable. This is different from asking whether
defense counsel’s performance fell below Strickland’s standard.”
23

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3016 Filed 04/30/19 Page 24 of 45

Harrington v. Richter, 562 U.S. at 101. Indeed, “because the Strickland
standard is a general standard, a state court has even more latitude to
reasonably determine that a defendant has not satisfied that standard.”
Knowles, 556 U.S. at 123 (citing Yarborough v. Alvarado, 541 U.S. at
664). Pursuant to the § 2254(d)(1) standard, a “doubly deferential judicial
review” applies to a Strickland claim brought by a habeas petitioner. Id.
This means that on habeas review of a state court conviction, “[A] state
court must be granted a deference and latitude that are not in operation
when the case involves review under the Strickland standard itself.”
Harrington, 562 U.S. at 101. “Surmounting Stricklands high bar is never
an easy task.” Id. at 105 (quoting Padilla v. Kentucky, 559 U.S. 356, 371
(2010)).
Petitioner initially argues that he was constructively denied the
assistance of counsel because his trial counsel, who was appointed to
replace petitioner’s first court-appointed attorney, only had several
weeks to prepare for petitioner’s trial. The Supreme Court has recognized
that in certain Sixth Amendment contexts, prejudice is presumed.
Strickland, 466 U.S. at 692. The “actual or constructive denial of the
assistance of counsel altogether is legally presumed to result in prejudice.
So are various kinds of state interference with counsel’s assistance.” Id.
Where defense counsel entirely fails to subject the prosecution’s
case to “meaningful adversarial testing,” there has been a constructive
denial of counsel, and a defendant need not make a showing of prejudice
24

Case 2:18-CV-10391-TGB-RSW ECF No. 10, PagelD.3017 Filed 04/30/19 Page 25 of 45

to establish ineffective assistance of counsel. Moss v. Hofbauer, 286 F.3d
851, 860 (6th Cir. 2002) (quoting United States v. Cronic, 466 U.S. 648,
659 (1984)). However, in order for a presumption of prejudice to arise
based on an attorney’s failure to test the prosecutor’s case, so that
reversal based on ineffective assistance of counsel is warranted, without
any inquiry into prejudice, the attorney’s failure to test the prosecutor’s
case “must be complete.” Bell v. Cone, 535 U.S. 685, 697 (2002).
Petitioner’s trial counsel filed and argued a motion to suppress
petitioner’s statement to the police. An evidentiary hearing was
conducted on the motion to suppress, during which counsel questioned
the witnesses and argued for the exclusion of petitioner’s statement to
the police on the ground that it was involuntary. Transcript, ECF No. 79. Prior to trial, the prosecutor made a plea bargain offer to defense
counsel, in which petitioner would plead guilty to second-degree murder,
in exchange for dismissal of a first-degree murder charge, as well as
dismissal of the other charges. Counsel conveyed the plea to petitioner,
who rejected the offer. Transcript, ECF No. 7-10 PageID.719-21. The
judge, the prosecutor, and defense counsel then discussed various pieces
of evidence that would be introduced at trial. Id. at PagelD.722-32.
On the first day of trial, defense counsel moved for an adjournment
of trial, because Petitioner’s family had retained another attorney.
Counsel also objected to the late endorsement of Mr. Jones or in the
alternative requested a continuance so that he could prepare for Jones’
25

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3018 Filed 04/30/19 Page 26 of 45

testimony. Transcript, ECF No. 7-11, PagelD.744-47. Defense counsel
participated in jury voir dire, including objecting to some of the
prosecutor’s questions of the prospective jurors, questioned the jurors
himself, and requested the removal of several jurors. Id. at PagelD.797,
800-01, 805, 810, 817-18, 821-22, 825, 830, 834, 837-38, 841-42.
Defense counsel made an opening argument contending that petitioner
acted in self-defense. Id. at PagelD.883-84. Counsel cross-examined
numerous witnesses. Id. at PagelD.913-18, 945-52, 959-61; Transcript,
ECF No. 7-12, PagelD. 1008-09, 1036-38, 1050-51, 1062, 1073, 11471150, 1170-72, 1194-96; Transcript, ECF No. 7-13 PageID.1260-61,
1273-75, 1325-1328, 1347, 1361-64, 1406-08; Transcript, ECF No. 7-14
PagelD. 1442-44. Counsel later moved for a directed verdict, arguing that
there was insufficient evidence for the case to go to the jury on a first or
second-degree murder charge. ECF No. 7-14 PagelD.1458. Counsel asked
for a jury instruction on self-defense, which was granted. Id. at
PagelD. 1466-67. Defense counsel later made a closing argument,
arguing that petitioner had acted in self-defense. Id. at PagelD. 1482-86.
In the present case, counsel’s alleged errors did not rise to the level
of the constructive denial of counsel, because counsel actively
represented petitioner at his trial. Moss, 286 F.3d at 860—62. The Cronic
presumption “applies only where defense counsel completely or entirely
fails to oppose the prosecution throughout the guilt or penalty phase as
a whole.” Benge v. Johnson, 474 F.3d 236, 247 (6th Cir. 2007) (citing Bell,
26

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3019 Filed 04/30/19 Page 27 of 45

535 U.S. at 697). Counsel’s alleged failures do not amount to a complete
failure to provide a defense. The presumption of prejudice therefore does
not apply and petitioner would be required to show that he was actually
prejudiced by counsel’s alleged omissions in order to obtain habeas relief.
Id.
Petitioner as part of his claim argues that counsel was ineffective
because he only visited him twice in jail prior to trial. Petitioner is not
entitled to habeas relief on this claim because he failed to show how he
was prejudiced by counsel’s failure to visit him more often in jail. See
Bowling v. Parker, 344 F.3d 487, 506 (6th Cir. 2003) (trial attorneys’
alleged failure to consult with defendant did not prejudice defendant in
capital murder case, and thus could not amount to ineffective assistance,
although attorneys allegedly met with defendant for less than one hour
in preparing defense, where defendant failed to show how additional
consultation with his attorneys could have altered outcome of trial).
Petitioner also alludes throughout his pleadings to the fact that his
trial counsel had a drinking problem.5 Petitioner suggests that counsel’s
problem with alcohol prevented him from adequately representing him
at trial. In light of the fact that petitioner’s counsel vigorously

5 See ECF 1-1, Page.ID 186—87, 190, 213 (in this last reference, petitioner’s post-trial
attorney, Mr. Smith, in a letter to petitioner’s appellate attorney Daniel Rust,
mistakenly refers to Mr. White, petitioner’s trial attorney, as Mr. Rust. It is obvious
from the fact that Mr. Smith was writing to Mr. Rust that his allegation that trial
counsel was suffering from alcoholism at the time of trial was a reference to trial
counsel and not to Mr. Rust).

27

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3020 Filed 04/30/19 Page 28 of 45

represented petitioner at trial in a lucid and alert manner, petitioner
failed to show that counsel’s alleged alcohol problem amounted to a per
se denial of the effective assistance of counsel. See Ivory v. Jackson, 509
F.3d 284, 295 (6th Cir. 2007) (trial counsel’s alleged shortcomings at
defendant’s murder trial were not sufficient to create per se prejudice, as
to support defendant’s ineffective assistance of counsel claim, despite
trial counsel’s alleged drug and alcohol abuse, where trial counsel was
conscious throughout the proceedings, cross-examined state’s witnesses,
moved for judgment of acquittal, and made a coherent closing argument).
Petitioner next argues that trial counsel was ineffective for failing
to argue that the murder victim was a professional mixed martial arts
fighter to bolster his self-defense claim. Counsel did in fact extensively
cross-examine Petitioner’s father regarding the victim’s martial arts
background. Ricky Davis also testified that “[ejveryone knew [the victim].
Knew him from being a professional kick boxer.” Transcript, ECF No. 713 PageID.1362.
Petitioner next argues that trial counsel was ineffective for failing
to request a psychiatric evaluation to determine Petitioner’s competency
to stand trial. Counsel testified at the Ginther hearing that he had no
good-faith basis to believe that there was any reason to believe that
Petitioner was incompetent to stand trial. Transcript, ECF No. 7-18
PageID.1658. The judge, in rejecting the ineffective assistance of counsel
claim, concluded that there was no basis to request an evaluation and no
28

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3021 Filed 04/30/19 Page 29 of 45

deficiency from counsel’s decision not to seek an evaluation. Transcript,
ECF No. 7-19 PagelD.1909-10.
A defendant is not prejudiced by counsel’s failure to seek a
competency examination, absent an actual basis to support a claim of
incompetency at the time of the proceeding. See Bair v. Phillips, 106 F.
Supp. 2d 934, 941 (E.D. Mich. 2000). Defense counsel’s failure to
challenge Petitioner’s competency to stand trial did not amount to
deficient performance in the absence of any evidence that Petitioner was
acting abnormally at the time of his pre-trial or trial proceedings. Id. at
942.
Petitioner next claims that counsel “failed to make crucial
objections.” ECF No. 1 PagelD.96. Counsel testified at the Ginther
hearing that his decision not to repeat an objection he had already made
unsuccessfully was a tactical decision, not a sign of incompetence.
Transcript, ECF No. 7-18 PagelD. 1619-20.
The Supreme Court has observed that “[a]n objection which is
ample and timely to bring the alleged federal error to the attention of the
trial court and enable it to take appropriate corrective action is sufficient
to serve legitimate state interests, and therefore sufficient to preserve
the claim for review.” Douglas v. State of Ala., 380 U.S. 415, 422 (1965).
Indeed, “[N]o legitimate state interest” is served “by requiring repetition
of a patently futile objection,” which has been rejected several times, “in
a situation in which repeated objection might well affront the court or
29

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3022 Filed 04/30/19 Page 30 of 45

prejudice the jury beyond repair.” Id. In light of the fact that the trial
court had already ruled against him, defense counsel may reasonably
have concluded that further objection would have been fruitless. See, e.g.,
Garrett v. United States, 78 F.3d 1296, 1301-02 (8th Cir. 1996).
“[Ijneffective assistance should not be found under Strickland when
counsel fails to perform those acts which clearly appear to be futile or
fruitless at the time the decision must be made.” Id., at 1303 n.ll.
Petitioner next contends that trial counsel was ineffective for
admitting in his opening statement that Petitioner had a delivery of
cocaine conviction. As the judge noted in rejecting Petitioner’s ineffective
assistance of counsel claim, the jury was going to learn that Petitioner
had a prior felony conviction because that was one of the elements of the
felon-in-possession of a firearm charge. The judge concluded that
counsel’s decision to inform the jurors of the nature of the prior
conviction, rather than stipulating that petitioner had a prior unspecified
conviction, may have been strategic, so that the jurors would not
speculate that petitioner had a prior assaultive or weapons conviction.
ECF No. 7-19 PageID.1901. Trial counsel was not ineffective for failing
to stipulate that petitioner had a prior felony conviction, because it might
have been sound strategy for counsel to allow Petitioner’s prior conviction
to be admitted to prevent the jurors from speculating about the crime
Petitioner had been convicted of. See, e.g., Bradley v. Birkett, 192 F. App’x
468, 476 (6th Cir. 2006). Moreover, petitioner was not prejudiced by
30

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3023 Filed 04/30/19 Page 31 Of 45

counsel’s failure to stipulate to the prior conviction, in light of the
significant evidence of petitioner’s guilt. Id.
Petitioner next contends that counsel was ineffective because he
showed disinterest in his case, expressed contempt for Petitioner,
thought that the questions that Petitioner wanted to have asked were
stupid, and told Petitioner he thought he was guilty. ECF No. 1 Page.ID
96-97. The mere fact that an attorney dislikes or distrusts his client does
not establish ineffective assistance of counsel or a conflict of interest,
absent a showing of how this animosity affected counsel’s performance.
See Hale v. Gibson, 227 F.3d 1298, 1312-13 (10th Cir. 2000). Petitioner
has made no such showing.
Petitioner next contends that counsel was ineffective for failing to
call character witnesses or witnesses to support his self-defense claim.
Conclusory allegations of ineffective assistance of counsel, without
any evidentiary support, do not provide a basis for habeas relief. See
Workman v. Bell, 178 F. 3d 759, 771 (6th Cir. 1998). Petitioner failed to
attach any affidavits from these additional witnesses concerning their
proposed testimony, nor did he provide any such affidavits either in the
motion for a Ginther hearing filed by counsel Mr. Smith or the numerous
pro se supplemental Standard 4 briefs and motions that petitioner filed
with the Michigan Court of Appeals.6

6 See ECF No. 7-20 PageID.2078-89, ECF No. 7-21 PageID.2169-2261, ECF No. 7-22
PagelD.2262-2311.

31

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3024 Filed 04/30/19 Page 32 of 45

By failing to present any evidence to the state courts in support of
his ineffective assistance of claim, petitioner is not entitled to an
evidentiary hearing on his ineffective assistance of counsel claim with
this Court. See Cooey v. Coyle, 289 F.3d 882, 893 (6th Cir. 2002) (citing
28 U.S.C. § 2254(e)(2)(A)(ii)). Petitioner has failed to attach any offer of
proof or any affidavits sworn by the proposed witnesses. Petitioner has
offered, neither to the Michigan courts nor to this Court, any evidence
beyond his own assertions as to whether the witnesses would have been
able to testify and what the content of these witnesses’ testimony would
have been. In the absence of such proof, Petitioner is unable to establish
that he was prejudiced by counsel’s failure to call these witnesses to
testify at trial, so as to support the second prong of an ineffective
assistance of counsel claim. See Clark v. Waller, 490 F.3d 551, 557 (6th
Cir. 2007).
Petitioner further alleges that counsel lied to him by telling him his
sister would not testify on his behalf. But counsel’s testimony at the
Ginther hearing does not substantiate Petitioner’s claim. According to
counsel, he and Petitioner discussed whether to call Ashley Davis to
testify and decided that it would be better not to call her. ECF No. 7-18
PageID.1629. Petitioner failed to provide an affidavit from his sister, so
this Court is unable to determine whether he was prejudiced by counsel’s
decision not to call her to testify.

32

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3025 Filed 04/30/19 Page 33 of 45

Petitioner next claims that counsel was ineffective for failing to
investigate certain witnesses. This claim fails for the same reason as
Petitioner’s claim above, namely, that he failed to provide this Court with
affidavits from these witnesses concerning their proposed testimony and
willingness to testify on Petitioner’s behalf. Counsel testified at the
Ginther hearing that he interviewed several witnesses and found that
they would not be helpful. Id. at PageID.1602. In addition, counsel had
the notes from Petitioner’s first attorney regarding that attorney’s
interviews of other witnesses, and based on those notes made a
reasonable decision that it was not necessary to interview those
witnesses again. Id. at PagelD. 1602-04. The Sixth Circuit “has
recognized that a defendant is not denied effective assistance of counsel
even if his attorney conducts no independent investigation of his own but
merely receives and relies upon a prior attorney’s work product in going
to trial.” Ray v. Rose, 535 F.2d 966, 975 (6th Cir. 1976). Petitioner failed
to show that counsel’s decision to rely on the investigation of prior counsel
was unreasonable.
Petitioner next alleges that trial counsel was ineffective for failing
to interview Mr. Jones, the jailhouse informant, prior to him testifying.
Petitioner argues that had counsel interviewed Mr. Jones, he would have
discovered that Mr. Jones committed perjury. Petitioner also argues that
if counsel had interviewed Jones, he would have discovered Jones
received favorable treatment in exchange for his testimony. This
33

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3026 Filed 04/30/19 Page 34 of 45

information was elicited at trial by the prosecution. Transcript, ECF No.
7-14 PagelD. 1433-34. Defense counsel cross-examined Jones about this
plea deal on cross examination, Id. at PagelD. 1443, and used this plea
deal to attack Jones’ credibility in closing argument. Id. at PagelD. 1485.
Petitioner has failed to show that he was prejudiced by counsel’s failure
to interview Jones prior to him testifying.
Petitioner also alleges that trial counsel was ineffective for failing
to present videotape evidence from the Berrien County Jail which he
claims would have shown that he and Mr. Jones never had any contact,
in order to discredit Jones’ testimony. Petitioner also claims that counsel
should have obtained the surveillance tapes from a liquor store and a gas
station in order to discredit several other witnesses. ECF No. 1-1
PagelD. 123.
The problem with this claim is that, like the others, Petitioner
presented no evidence to this Court or to the state courts that such
evidence exists or that it contains exculpatory or impeachment material.
In the absence of such a showing, Petitioner is not entitled to relief on his
claim.
Petitioner next contends that trial counsel was ineffective in his
cross-examination of the witnesses.
“Courts generally entrust cross-examination techniques, like other
matters of trial strategy, to the professional discretion of counsel.” Dell
v. Straub, 194 F. Supp. 2d 629, 651 (E.D. Mich. 2002). “Impeachment
34

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3027 Filed 04/30/19 Page 35 of 45

strategy is a matter of trial tactics, and tactical decisions are not
ineffective assistance of counsel simply because in retrospect better
tactics may have been available.” Id.
Defense counsel’s performance did not constitute ineffective
assistance of counsel where the record shows that defense counsel
carefully cross-examined the prosecution witnesses and in his closing
argument emphasized the inconsistencies and weaknesses in the
testimony of the various witnesses, as well as their possible motivations
for testifying falsely against petitioner. See Krist v. Foltz, 804 F.2d 944,
948-49 (6th Cir. 1986).
Although other attorneys might have reached a different conclusion
about the value of cross-examining the witnesses in greater detail,
counsel’s strategic choice not to cross-examine these witnesses in greater
detail was “‘within the wide range of reasonable professional
assistance.’” See Moss v. Hofbauer, 286 F.3d 851, 864 (6th Cir. 2002)
(quoting Strickland, 466 U.S. at 689). Finally, Petitioner has failed to
identify how additional impeachment of these witnesses would have
affected the verdict. Defense counsel was not ineffective by not more
forcefully cross-examining the witnesses, particularly when the effect of
further probing is entirely speculative on Petitioner’s part. See Jackson
v. Bradshaw, 681 F.3d 753, 764-65 (6th Cir. 2012).

35

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3028 Filed 04/30/19 Page 36 of 45

Petitioner next claims that defense counsel was ineffective because
he failed to object to Jones’ testimony as a violation of Petitioner’s Sixth
Amendment right to counsel.
The Michigan Court of Appeals rejected petitioner’s claim:
Jones testified that he came into contact with defendant after
defendant was moved into the same jail block as he. There is
no record evidence to indicate that the police purposely placed
defendant in the same block as Jones or that the police and
Jones had worked out a plan to gain incriminating statements
from defendant. Nothing on the record refutes that Jones, on
his own and without any instruction or encouragement from
the police, brought defendant’s statements to the attention of
the prosecutor and police. So, an objection to Jones’s
testimony on the basis that it violated defendant’s Sixth
Amendment right to counsel would have been futile; failing to
assert a futile objection is not ineffective assistance.
People v. Davis, 2016 WL 1125669, at *5.
Once a defendant’s Sixth Amendment right to counsel has formally
attached, a defendant is denied that right when law enforcement officials
“deliberately elicit” incriminating statements from him in the absence of
his lawyer. Massiah v. United States, 377 U.S. 201, 206 (1964). However,
the Sixth Amendment does not forbid the admission of a criminal
defendant’s statements to a jailhouse informant who may be placed in
close proximity to the defendant in jail but who makes no effort to initiate
or to stimulate conversations about the crime with which the defendant
is charged. See Kuhlmann v. Wilson, All U.S. 436, 456 (1986). A
36

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3029 Filed 04/30/19 Page 37 of 45

defendant’s Sixth Amendment right to counsel is “is not violated
whenever—by luck or happenstance—the State obtains incriminating
statements from the accused after the right to counsel has attached.”
Maine v. Moulton, 474 U.S. 159, 176 (1985). A criminal defendant thus
does not show a violation of his Sixth Amendment right to counsel merely
by showing that an informant, either through a prior arrangement with
the police or voluntarily, reported his incriminating statements to the
police. Kuhlmann, 477 U.S. at 459. Massiah is concerned with secret
interrogation by investigatory techniques which are considered the
equivalent of direct police interrogation. A defendant must demonstrate
that the police and their informant took some action, beyond merely
listening, which was designed deliberately to elicit incriminating
remarks from the defendant. Id.
Petitioner failed to show that Jones was acting as a government
agent when petitioner made his incriminating remarks to him or that
Jones undertook any action that was deliberately designed to elicit these
incriminating remarks from Petitioner. Because the evidence establishes
that Jones merely listened to Petitioner’s confession without encouraging
it or otherwise eliciting it, the use of Petitioner’s confession to Jones did
not violate defendant’s right to counsel. See Post v. Bradshaw, 621 F.3d
406, 424-25 (6th Cir. 2010). Counsel was not ineffective for “failing to
pursue a meritless Massiah motion.” Price v. Phelps, 894 F. Supp. 2d 504,
523 (D. Del. 2012).
37

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3030 Filed 04/30/19 Page 38 of 45

Petitioner next claims that trial counsel was ineffective for failing to
hire a private investigator. Petitioner, however, has failed to show that
counsel would have obtained beneficial information had he hired an
investigator, thus, he failed to establish that he was prejudiced by
counsel’s failure to hire an investigator. See Welsh v. Lafler, 444 F. App’x
844, 851 (6th Cir. 2011) (defense counsel’s failure to hire private
investigator during prosecution for criminal sexual conduct did not
prejudice defendant, and thus was not ineffective assistance; defendant
failed to present sufficiently detailed and convincing account of what
additional facts investigator could have discovered in support of
defendant’s innocence).
Petitioner finally argues that counsel was ineffective for failing to
object to the prosecutor’s argument that it was possible that someone
planted a knife on the victim after he was killed in order to fabricate a
self-defense claim.
It is improper for a prosecutor during closing arguments to bring to
the jury any purported facts which have not been introduced into
evidence and which are prejudicial; however, prosecutors must be given
leeway to argue reasonable inferences from the evidence. Byrd v. Collins,
209 F.3d 486, 535 (6th Cir. 2000). The prosecutor’s suggestion that the
knife could have been planted on the victim was a reasonable inference
from the evidence that the victim’s fingerprints were not found on the

38

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3031 Filed 04/30/19 Page 39 of 45

knife and no one saw the victim carrying a knife that night. Transcript,
ECF No. 7-14 PageID.1480.
To show prejudice under Strickland for failing to object to
prosecutorial misconduct, a habeas petitioner must show that but for the
alleged error of his trial counsel in failing to object to the prosecutor’s
improper questions and arguments, there is a reasonable probability that
the proceeding would have been different. Hinkle v. Randle, 271 F.3d 239,
245 (6th Cir. 2001). Because the prosecutor’s argument was not improper,
petitioner is unable to establish that he was prejudiced by counsel’s
failure to object. Slagle v. Bagley, 457 F.3d 501, 528 (6th Cir. 2006).
Petitioner is not entitled to habeas relief on his ineffective assistance of
counsel claims.

G. Claim 8: Systematic Exclusion.
Petitioner next claims that he was denied a jury drawn from a
fair cross-section of the community because he was tried by an all-white
jury.

Although a defendant has no right to a jury composed in whole or
in part of persons of his own race, he does have the right to be tried by a
jury whose members are selected by non-discriminatory criteria. Powers
v. Ohio, 499 U.S. 400, 404 (1991) (internal citations omitted). While
states may prescribe relevant qualifications for their jurors, members of

39

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3032 Filed 04/30/19 Page 40 of 45

a community may not be excluded from jury service on account of their
race. Id.
A defendant, however, may not challenge the makeup of a jury
merely because no members of his race are on a jury, but must prove that
jurors of his race have been systematically excluded. Apodoca v. Oregon,
406 U.S. 404, 413 (1972). To establish a prima facie violation of the fair
cross-section requirement, a defendant must show:
(1) that the group alleged to have been excluded is a
‘distinctive group’ in the community;
(2) that the representation of that group in venires from
which juries are selected is not fair and reasonable in
relation to the number of such persons in the community;
and
(3) that the under-representation is due to the systematic
exclusion of the group in the jury selection process.
Duren v. Missouri, 439 U.S. 357, 364 (1979).
“More than mere numbers must be provided to establish” that
members of a particular ethnic or racial group are systematically under­
represented in the jury venire. United States v. Greene, 971 F. Supp.
1117, 1128 (E.D. Mich. 1997). The strength of the evidence of under­
representation of the group in the venire is only one factor to be
considered in determining whether a prima facie violation of the fair
cross-section requirement has been established. Factors such as the
nature of the process by which jury lists are composed and the length of
40

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3033 Filed 04/30/19 Page 41 of 45

time of under-representation, together with the strength of the evidence
that purports to establish unfair and unreasonable representation also
need to be examined. Id. (citing to Ford v. Seabold, 841 F.2d 677 (6th Cir.
1988)).
The only evidence that petitioner offers in support of his claim is
the fact that a single African-American juror who had initially been
called to sit on the jury panel had been excused. Petitioner does not
identify this juror, nor does he offer any evidence concerning the number
of African-American jurors who were in the entire jury pool. ‘“[A] one­
time example of underrepresentation of a distinctive group wholly fails
to meet the systematic exclusion element’ to establish a prima facie
violation of the Sixth Amendment’s requirement that jurors in criminal
cases be drawn from a fair cross-section of the community.” Gardner v.
Kapture, 261 F. Supp. 2d 793, 802 (E.D. Mich. 2003) (quoting McGinnis
v. Johnson, 181 F.3d 686, 690 (5th Cir. 1999)). Petitioner failed to show
that African-Americans were systematically excluded from jury service
in Berrien County at the time of his trial. Conclusory assertions of
underrepresentation are insufficient to support a systematic exclusion
claim. See U.S. v. McCaskill, 48 F. App’x 961, 962 (6th Cir. 2002).
Petitioner’s failure to point to any evidence supporting a prima facie
violation of the fair cross-section requirement defeats this claim. Id.

41

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3034 Filed 04/30/19 Page 42 of 45

H. Claim 9: Transcripts
Petitioner finally alleges that his due process rights were violated
because he was not provided copies of the trial transcripts to assist him
in preparing his pro se Standard 4 briefs that he filed on appeal in
addition to the brief submitted by appellate counsel.
Petitioner’s claim is without merit because the trial transcripts
were provided to him by the trial court.
In any event, petitioner fails to state a claim upon which relief can
be granted. A criminal defendant has no federal constitutional right to
self-representation on direct appeal from a criminal conviction. Martinez
v. Court of Appeal of California, 528 U.S. 152, 163 (2000). This is because
the rights protected by the Sixth Amendment, including the right to self­
representation, are rights that are available to prepare for trial and at
the trial itself. However, the Sixth Amendment does not include any right
to appeal. Id. at 160. The Supreme Court also rejected the idea that the
right to self-representation on appeal could be grounded in the Due
Process Clause [of the Fourteenth Amendment], because “[U]nder the
practices that prevail in the Nation today, however, we are entirely
unpersuaded that the risk of either disloyalty or suspicion of disloyalty is
a sufficient concern to conclude that a constitutional right of self­
representation is a necessary component of a fair appellate proceeding”.
Martinez, 528 U.S. at 161.

42

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3035 Filed 04/30/19 Page 43 of 45

Thus, there is no constitutional entitlement to submit a pro se
appellate brief on direct appeal from a criminal conviction in addition to
a brief submitted by appellate counsel. See McMeans v. Brigano, 228 F.3d
674, 684 (6th Cir. 2000). By accepting the assistance of counsel, the
criminal appellant waives his right to present pro se briefs on direct
appeal. Myers v. Johnson, 76 F.3d 1330, 1335 (5th Cir. 1996); see also
Henderson v. Collins, 101 F. Supp. 2d 866, 881 (S.D. Ohio 1999); aff’d in
part, vacated in part on other grounds, 262 F.3d 615 (6th Cir. 2001)
(defendant who was represented by counsel and also sought to submit
pro se brief upon appeal did not have right to such hybrid representation).
Because Petitioner was represented by appellate counsel, any
failure by the trial court or appellate counsel to provide Petitioner with
the trial transcripts so that he could prepare his own pro se brief would
not violate Petitioner’s constitutional rights. See U.S. v. Dierling, 131
F.3d 722, 734 n. 7 (8th Cir. 1997); Foss v. Racette, No. l:12-CV-0059, 2012
WL 5949463, at *4 (W.D.N.Y. Nov. 28, 2012); see also Willis v. Lafler, No.
05-74885, 2007 WL 3121542, at *18 (E.D. Mich. Oct. 24, 2007) (petitioner
not entitled to habeas relief based upon trial court’s failure to rule on
petitioner’s post-trial motion to compel copies of transcripts and
videotapes when petitioner was represented by appellate counsel).
Petitioner also alleges that his appellate counsel was ineffective for
failing to move for a Ginther hearing on his ineffective assistance of trial
counsel claims. The Sixth Amendment guarantees a defendant the right
43

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3036 Filed 04/30/19 Page 44 of 45

to the effective assistance of appellate counsel on an appeal of right, see
Evitts v. Lucey, 469 U.S. 387, 396-397 (1985). In the present case,
although Petitioner’s original appellate counsel did not move for a
Ginther hearing, Petitioner retained a second attorney, Mr. Shawn
Patrick Smith, who successfully moved for a Ginther hearing, which was
conducted on June 11 and 26, 2015. Petitioner was represented by this
attorney at the Ginther hearing. “Since no other Supreme Court
precedent has expanded the Evitts rule to require a forum for ineffective
assistance of appellate counsel claims when the appellant’s case was
actually heard and decided,” as was the case here, Petitioner is not
entitled to habeas relief on his ninth claim. Wilson v. Parker, 515 F.3d
682, 708 (6th Cir. 2008), as amended on denial ofreh’g and reh’g en banc
(Feb. 25, 2009).

IV. Conclusion
The Court denies the petition for a writ of habeas corpus. The Court
also denies a certificate of appealability to petitioner. In order to obtain
a certificate of appealability, a prisoner must make a substantial
showing of the denial of a constitutional right. 28 U.S.C. § 2253(c)(2). To
demonstrate this denial, the applicant is required to show that
reasonable jurists could debate whether, or agree that, the petition
should have been resolved in a different manner, or that the issues
presented were adequate to deserve encouragement to proceed further.
44

Case 2:18-cv-10391-TGB-RSW ECF No. 10, PagelD.3037 Filed 04/30/19 Page 45 of 45

Slack v. McDaniel, 529 U.S. 473, 483-84 (2000). When a district court
rejects a habeas petitioner’s constitutional claims on the merits, the
petitioner must demonstrate that reasonable jurists would find the
district court’s assessment of the constitutional claims to be debatable
or wrong. Id. at 484. “The district court must issue or deny a certificate
of appealability when it enters a final order adverse to the applicant.”
Rules Governing § 2254 Cases, Rule 11(a), 28 U.S.C. foil. § 2254.
For the reasons stated in this opinion, the Court denies Petitioner
a certificate of appealability because he failed to make a substantial
showing of the denial of a federal constitutional right. See also Millender
v. Adams, 187 F. Supp. 2d 852, 880 (E.D. Mich. 2002). The Court also
denies Petitioner leave to appeal in forma pauperis, because the appeal
would be frivolous. See Allen v. Stovall, 156 F. Supp. 2d 791, 798 (E.D.
Mich. 2001).
SO ORDERED.

Dated: April 30, 2019

s/Terrence G. Berg
TERRENCE G. BERG
UNITED STATES DISTRICT JUDGE

45

Case: 19-1540

n

Document: 19-1

Filed: 05/06/2020

Page: 1

(1 of 2)

)

No. 19-1540

UNITED STATES COURT OF APPEALS
FOR THE SIXTH CIRCUIT

JOVON C. DAVIS

)
)
)
)
)
)
)
)
)
)
)

Petitioner-Appellant,
v.
WILLIS CHAPMAN, WARDEN,
Respondent-Appellee.

FILED
May 06, 2020
DEBORAH S. HUNT, Clerk

ORDER

Before: SUTTON, McKEAGUE, and NALBANDIAN, Circuit Judges.
Jovon C. Davis petitions for rehearing en banc of this court’s order entered on December
4, 2019, denying his application for a certificate of appealability. The petition was initially referred
to this panel, on which the original deciding judge does not sit. After review of the petition, this
panel issued an order announcing its conclusion that the original application was properly denied.
The petition was then circulated to all active members of the court, none of whom requested a
vote on the suggestion for an en banc rehearing. Pursuant to established court procedures, the
panel now denies the petition for rehearing en banc.

ENTERED BY ORDER OF THE COURT

Deborah S. Hunt, Clerk

—s

APP&Mbixr- 5*
AMrorneM^ finevcuioe, G&cnnrwssion ^Cottiplcaofb

4

:4

4

Detroit; MI 48226
___
RE("^~^ST FOR INVESTIGATEN'(R/I) FOF
)
Please fill out the entire form in ink - sign at the bottom - and provide a copy of any relevant
information. In order to expedite the processing of your complaint, please provide 2 comes of anv
supporting documents.
Attorney information:
Name [one attorney perR/1 form):
Address fnumber and street):

0 o. n } ¥> |

K . Pi iS.t

T’.t) iNo^

■P nl-^rnrd
City:
Area code and
Telephone Number:
Type of case
fdivorce, criminal, estate, etc]:

v

111 9V1 ~m4
Criminal

Name of court

Date attorney was hired/appointed:

(\otMrfVy
'

Is this your first complaint to this office
about this attorney?
"j
_______

Zip CodeC^T^HO

fY\i(bhi^a.n

State:

Case #i
Date of previous complaint
fif applicable]:

STATEMENT OF FACTS
fPiease provide details. You may attach additional pages.]
t

4-1-H
~QQ£) ^

. *

; i;

*rr\

b-P 'vKe. TO*

«5 C.

V

‘Wve.

iWte. bnef\ McotKe has noV proper^ »h' «

« wH *Uewu)«uJU.i .UbytVrhwW w>«. Me.

'

'£ti\

moJ biAk-iVbri -Vb cXiO. desYra/e^: M4ion^vip.VfW>
pev»oO tfV. ftasbr br^-fe rmopM v4fh)
So3v4- U- ^ re«pcvs« uP^/'Ve
^ OYWed? TbeFMled tonrvnnwviR.PC1 '
■Thi. akkr^eys -?cu We to
rrW re^u,*ek ar-£. esrrb-a^y -to t tYA
bTJU-) Cjrkc!*
- Tip'
"T
s-t+t>rr\2v s
waAceS
une&W b€fi=-as,e, a>tcyr dbr&a^V d*o-_ ■&avr\<.
.T
ny k.^1 &4.ur/»l tp<u~»a^V irOQPd') rude <?. 4 / b),u>Wi'aK sWreS IV T9 p «&fesf *a r>4 \r^isawaij^ bwA+b
Vfvfc,rtprtSenia4-!iir), X. arrvin
currv m 1*4 O- P*a> taue^-ed /

ldc*j>j

;.=vF>krex\ tofAe,

p’Or-Pormcwvee._ ~X- h.=--w\t>^s/ afiOiA k

1 request the Attorney Grievance Commission investigate the above attorney:
•Your Name - print in ink:

vJ^rOArrvTN
Your Signature - in ink:

Addre'ss-Cnumber and Streep:

____________ ______=----- :-----

Date:

MrsQ

-MsO

<1-33-14

\v\2 CO^dr TfWm S^re-dr
State:

City: HI OTt t
Area code and
Tel eph o n egiumber:

/

Mr f

TWhVbYP ~W

rrvcwdj 0(1

Zip Code:

fAGC R1 Form rev. May 33, 2013]
(00049917.DOq

¥

¥

k

k

1

Appeal* - Ld
mtprnet^.

k

k

CcmrrMS&ton (fce.spgnse-")

k

k

k

ALANM GERSHEL

GRTEVANCE ADMINISTRATOR

1

ROBERT E. EDICK

DEPUTT ADMINISTRATOR

CYNTHIA C. BURLINGTON
ASSISTANTDEPUTYADMINISTRATOR

ASSOCIATE COUNSEL

Attorney GMK5ogCoMMssioN
f; .,c 4, iv. a*^4 rv

RUTHANN STEVENS
STEPHENP. VELLA
RHONDA SPENCER POZEHL
ERANCES A ROSINSKI
EMILY A DOWNEY
KIMBERLY L. UHURU
DINAP. DAJANI
TODD A McCONAGHY
JOHNK BURGESS

BUHL BUILDING
535 GRISWOLD,SUITE 1700
DETROIT, MICHIGAN 48226
TELEPHONE (313) 961-6585
WWW.AQCMT.COM

October 28, 2014

PERSONAL AND CONFIDENTIAL
Mir. Jovon Davis #591753
Michigan Reformatory
1342 West Main Street
Ionia, MI 48846
RE:

Joyon Davis as to Daniel J. Rust
AGC File No. 1920-14

Dear Mr. Davis:
This office received your Request for Investigation, however, the allegations in your complaint
are insufficient to warrant review by the Commission. Accordingly, after careful review'by the
staff, this matter is being closed under the authority of the Grievance Administrator pursuant to
Michigan Court Rule 9.112 (C )(1) (a).
The Attorney Grievance Commission has no authority to direct any attorney to take any action on
your behalf. We also have no authority to remove an attorney from your case. If you are unable
to resolve your differences by communicating directly with your attorney, you may consider
asking the court to appoint a new attorney.
Mr. Rust has been provided with a copy of your Request for Investigation. If my staff or I can be
of service to you in the future, please do not hesitate to contact us again.
Very truly yours,
fLCU4<*<.
Ruthann Stevens
Senior Associate Counsel
RS/bat
cc: Daniel J. Rust
Enclosure
1
i

{00244485.DOC}

j

4

4

0 >
■x

1

/

APPENbiy- 7
Mfrhon For- (Ler+'^ccoVe.'P,

0.rSi^jQr>-V -Vo llrtv-Porro A-oV TO

Secure,

0-t^ \jQtW <;s

is

Frortn SJt*VhotcV- SWFe.

is

=?'

!

3

1

STATE OF MICHIGAN

IN THE TRIAL COURT FOR THE COUNTY OF BERRIEN

co
X,:-.

•o

\

y.

File No.

THE PEOPLE OF THE
STATE OF MICHIGAN

2 013 0 0 030.3-FY

vO

•*

Plaintiff,
MOTION FOR CERTIFICATE
PURSUANT TO UNIFORM ACT TO .
SECURE ATTENDANCE OF WITNESS
FROM WITHOUT STATE

-vsJOVON CHARLES DAVIS
Defendant.
/

NOW COME the People of the State of Michigan by the'ir
Attorney, Patricia T Ceresa, Assistant Prosecuting Attorney, in
and for the County of Berrien and move this Court for the
issuance of a certificate to secure the attendance of one
Charles Lee Marcus Davis Jr, believed to be a resident or
working in the City of Plymouth, County of Hennepin, State of
Minnesota.
The People further state:
1. That the State of Michigan has enacted the Uniform Act
to Secure the Attendance of Witnesses from Without a State in
criminal proceedings, being MCLA 767.91 et. seq.; MSA
28.1023 (191) et. seq.
2 . That the State of Minnesota has also enacted the
Uniform Act to Secure Attendance of Witnesses from Without the
State in criminal proceedings, being M.~S.A. §§ 634.06 to 634.09.
3 . That the above named defendant is charged in Berrien
County Trial Court with the offense of 750.316-C, Hom-Opn MrdrStat Sht Frm; 750.83, Assault WI To Murder; 750.224F, Poss
Firearm by Felon; 750.227, WPN-Carrying Concealed; 750.227B-A,
' Weapons-Felony Firearms.
4 . That the Preliminary Examination in the above matter
has been set for the 25th day of. April', 2013, at 8:30 -am in the
Berrien County Courthouse, St. Joseph, Michigan and is scheduled
for 1 day(s) of testimony.
5 . That the People of the State of Michigan are required
to produce all material witnesses upon the trial of this cause.
■;*

it

it:

it

V

1

material witness
6. That Chavis Lee Marcus Davis Jr is
to this particular offense in that he/she has knowledge and
information necessary to properly resolve the above entitled
matter.
7.

That said witness is required to testify in the Berrien

County Trial Court in the above entitled matter pursuant to
Michigan law and is, therefore, a material and necessary witness
to the prosecution in this matter.
8. That attendance and testifying in the prosecution of
this matter will not cause undue hardship to the witness.
9. That pursuant to MCLA 767.94; MSA 2 8 ..1023 (193) said
Charles Lee Marcus Davis Jr shall not while in this state,
pursuant to such summons as may be.issued by the Courts^ of
Berrien County be subject to arrest or the service of civil or
criminal process in connection with matters which arose before
his/her entrance into this State under said summons.
10 . That statutory witness fees are being forwarded to the
Court in Hennepin County, for the named witness.
WHEREFORE, the People pray that this court issue a
certificate and forms attached hereto pursuant to the authority
of MCLA 767.92 et. seq.;MSA 28.1023(191) et. seq.
fully submitted,

Respe
t

Patricia T (Zeresa
Assistant Prosecuting Attorney
Berrien County, Michigan

it

1

APP&ubw-s
Pe4-i4ion—lo Hold McckyiaA Vj'i4ngss To Bo.,' Or AarJO Hold M&4egg,l VT4ne*S T& TW> \ A&er Vi ecu-v

?*

¥

ft

i*

«?

L

;

STATE OF MICHIGAN.
IN THE TRIAL COURT FOR THE COUNTY OF BERRIEN

THE PEOPLE OF THE
STATE OF MICHIGAN
File No. 2013-000303-FY
Plaintiff,
Judge Gary J. Brucfe
-vsORDER TO HOLD MATERIALH H
WITNESS TO BAIL AFTER
MAY
HEARING

JOVON-CHARLES DAVIS,
Defendant.

2 0 2013

BERFHEN COUNTY
TRIAL COURT

Patricia T. Ceresa (P40251)
Assistant Prosecuting Atty
811 Port Street
St. Joseph, MI 49085
(616) 983-7111 Ext. 8311

Richard Sammis (P43777)
Attorney for Defendant
606 Main Street
St. Joseph, Mi 49085
616 983-1803

A Petition having been filed in this case by the People
of the State of Michigan by and through Patricia T. Ceresa,
Assistant Prosecuting Attorney, setting, forth that Charles
Lee Marcus Davis Jr.

(a black male born 04/01/84) is a

necessary and material witness in a criminal case in a Court
in said County, and that there is danger of the loss of
Charles Lee Marcus Davis Jr's•testimony in said cause, or in
default of bail that Charles Lee Marcus Davis Jr. be
committed to the County Jail until the conclusion of said
case, and as attachment having been issued thereon, and the
said material witness having been before this Court, and,
after hearing the proofs presented, it satisfactorily
appearing that said person is a material and necessary

D1A

u:

if

£

/

i
\

'
■)
■

witness in said cause, and that there is danger of the los's
of Charles Lee Marcus Davis Jr. testimony unless they furnish
bail or are committed in default of bail, and the Court being
fully advised in the premises;
IT IS HEREBY ORDERED that the said Charles Lee Marcus
Davis Jr. furnish bail in the sum

o

cash/surety conditioned upon his appearance in the Courts of '
this County, for all examinations, all hearings and trials in
said cause, or, in default thereof, be committed to the
custody of the Sheriff of this County until such bail be
furnished, or until discharged by the further Order of this
Court.

DATED:

S-/M

Gary J. Bruce
Trial Court Judgey

Attest:

Deputy Clerk

9

K

o

DIB

U

g*=-

it

*

f

)

STATE OF .MICHIGAN
COUNTY OF BERRIEN
IN THE TRIAL COURT FOR THE .

File No. 2013-000303 FY
THE PEOPLE OF THE
STATE OF MICHIGAN
Judge Gary J- Bru.ce

Plaintiff,

PETITION TO HOLD MATERIAL
WITNESS TO BAIL

-VS-

JOVON CHARLES. DAVIS,
Defendant.
PATRICIA T. CERESA. (P4 0251).
Office of Prosecuting Attorney
811 Port Street
St. Joseph, MI 49085(616) 983-7111 Ext. 8311

Richard Sammis (P43777)
Attorney for Defendant
606 Main Street
St'. Joseph, Mi 49 085
616 983-1803

STATE OF MICHIGAN)
) ss
COUNTY OF BERRIEN).

!
!

EEfffiIyS"

NOW COMES, the People of the State

i

•^=TT ffW 1

of Michigan by and

Ceresa, Assistant Prosecuting Attorney,

1

through Patricia- T.

;.i

and respectfully shows:
criminal case pending in the Trial
THAT
there
is
a
1.
of Berrien, in which case the name of■
Court for. the County
this petition.
the Defendant is as shown above on
Marcus Davis Jr. (a black male born
■
THAT
Charles
Lee
2.
material witness- in said
04/01/84) is a necessary and
there is danger of the loss of his/her
criminal case, and
he be required to furnish bail or be
testimony unless
furnish such bail.
committed in the event he fails to

i
;

!

v.

i

3.

Charles Lee Marcus Davis Jr. served a subpoena on

April 10, 2013 for a preliminary examination on April 25,
2013 .
. 4.

THAT Charles Lee Marcus Davis Jr. failed to appear

on April 25, 2013, called the Assistant Prosecutor and was
instructed come to the prosecutor s office on said date to
discuss the case with the prosecutor
5.

Charles Davis Jr. did not appear and the prosecutor

has made numerous efforts to contact Charles Davis Jr.
without success.
6.,

Police officers have attempted to locate Charles

Davis Jr. to this date without success.
7.

Charles Davis Jr. is an eye witness to the crime of

murder and the shooting of Heather Poe and is material to the
case.
WHEREFORE, your petitioner therefore prays that an
attachment be issued pursuant to MCLA 767.35 (MSA 28.975)
requiring said witness to be brought before this Court to
(a black male
show cause why Charles Lee Marcus Davis Jr.
born 04/01/84) should not be required to enter into a
recognizance to appear and give testimony in said cause.

i
I
;

DATED: May 17, 2013 •

i

r
t

{

:1
f

m 7\

a:

Patricia T. G^resa
Assistant Prosecuting' Attorney

I

)

r

Subscribed and sworn to before me, a Notary Public m
and for the County of Berrien, this 17th day of May, 2013.
Susanne Wagner, Notary Public
My Commission .Expires: 7/22/2018

I

!
]

if

m

a

&

'•>

&

i-

j^Wriltuu~ ^OoeS ~P\-€a.~ ^>tx,c<^QAO __

¥

¥

ii

¥

•s,-

!

)?•■■■■

Berrien County Prosecutor’s Office
Charge Change Authorization Worksheet
Case Number 0,0/ .'''/)/(/) A /-

f)

-!/

A J i/lh

Defendant’s Name [ /

Person ED

0'

The Berrien County Prosecutor’s Office authorizes the following charge changes:
Must include PACC codes.
1
E] Amended r 'if i J) P#a4 e.A" ~i Lfl ,lfl lAlftAfATI'i pacc
Ct.

I

s’

Ct. c\J

ct.

(J

□ Amended ( f'j /' * t
□ Added
□'Nolle

a

/

v../

□ Added
□ Nolle

/] L-L
i

A' WPl'l f. H

PACC

/

/
i
AS
□ Amended ( X,/VV i-'/AA-f .4,1 (jJAfsf ¥/? 1/ s~\W r r PACC
□ Added
/
□ 'Nolle

1

Ct. A

Ct.

□ Amended (.
□ Added
□ ’Nolle

$ J. ) € Xfl

PACC

if'

f !

□ Amended
□ Added
□ Nolle

PACC

Notes:

PI Plea Agreement:

(

11mriA'sL rniia
1

"ff} Ifjl/AAVUJ < (i 7

4

. ./M

/M H.

i 1 .

firi clJ, Af/Wij)sM

i

J

n O-P-1 /jLrn/l "Pi ■£' Vfs AMtfh'J At QOi,) , rf
ff

A

J

'

(

-

/

/■'••.............

‘

•':hriA}fhtir'hkA&il . , /nf'kukfho AifJlIthAfkA , '^fu <£).& Aai & (IQv-iiH 'kr\
...........■ ■

/hIfi(o ft

,

/ ■

“•

q

■

•

M'Ahr n&js/vMrf.

f

a

o..:;

4) a

1

'

o.

nir/yhfA ('iv.o f)?i ‘AA o mjtstA
f

P‘7! S('/ 0

(J

Authorizing Prosecutor’s Bar Number 3
Authorizing Prosecutor’s Signature

,-/l

. . ,•>//

SAf■■(. ■■■?/' v^j/

l

Date
f

Effective. 06/30/2008

While copy- Courts
Yellow copy—Prosecutor File
PA-0197

-f

t

6/24/2008

k

4

k

1

APP6Nb\V ~ ID
Auc4hgr "Sope-S VbWW.«rin9,/ fleeing. &<■
An -Affirdr U-i4e>

£

£

v?:

1

1
<P-c>

i

TO:

NAME:.

C

LOCATION: B.

(or) Dorm

919 Port Street, St. Joseph, Michigan

‘

Co.

/tn •

^ {

- W01/ 2 7 2013 '
49085

DEC 0 3 zm

Berrien-Co11nty Prosecutors Office

PrnTnen Countv

&

Prosecutors Offce . DATE:

JAIL INFORMATION: (269) 982-8670

^4

i

4-

^1

1—1

j^rl----- £

i

rs

■SsJU

ft

9

, s /k4^

A

T

r
vJrW^st

i

w-v*”"

c^—A

S»s

A

T

*
:

)

'f

/•

^
•:

r

4

4

4

4

4

$

■ii

From: Samantha Henderson <shenderson@berriencounty.org>
Date: Fri, Sep 27, 2019 at 9:43 AM
Subject: FOIA Request RE: Jovon Davis
To: <matt@humanityforprisoners.org>
Mr. Tjapkes, .
The Berrien County Prosecutor’s Office is in receipt of your Freedom of Information Act request, dated
November 9, 2018, which you submitted to the Berrien County Corporate Counsel in reference to prosecutor’s
file, People v Jovon Davis. Our office did not receive this request until September 23, 2019. You request is for
a copy of “all available documents regarding a plea deal that was given to Arthur B. Jones for his testimony in
the case of Jovon Davis, case number 2013-000303-FC.”
Per your request, our office reviewed file 2013000303-FC, People v Jovon Davis. The prosecutor’s file for this •
case contains the following specified documents related to your request: a copy of supplement #44 of the
Benton Harbor Department of Public Safety’s Police report dated January 18, 2014 (2 pages) and pages 19
through 33 of volume IV the jury trial transcript for People v Jovon Davis where Arthur Jones testified. I am
only including the transcript portion where Arthur Jones testified. Should you need the rest of the trial
transcript, you’ll need to make a separate request.
Our office also reviewed file 2013016473-FC, People v Arthur B. Jones. The prosecutor’s file for this case
contains the following specified documents related to your request: the Charge Change Authorization
Worksheet and a copy of a letter from Arthur Jones.
These 4 documents (total of 19 pages) are attached to this email. For this particular request, the fee is waived.
You may submit to the Prosecutor a written appeal that specifically states the word “appeal” and identifies the
reason or reasons for reversal of the disclosure denial, or seek judicial review of the denial under MCL
15.240. You also have the right to receive attorneys’ fees and damages as provided in MCL 15.240 if, after
judicial review, the circuit court determines that the public body has not complied with this section and orders
disclosure of all or a portion of a public record.
Sincerely,
Samcmt/ia J7Je?uferson
Legal Assistant / LEIN TAC / Extraditions
Berrien County Prosecutor’s Office
811 Port Street | St. Joseph, MI 49085
P: 269-983-7111 x8326 | F: 269-983-5757
Email: shenderson@berriencountv.org

A'PP&wbvtf-il
Tbl-iVioot.r5 HWhbn F&rVfGoWcjVi op p£ fce.Co<-dL<. and Judges
Order ^ran4-in^~?^iVton€c6 \~\bMoo______ —

¥

¥

¥

¥

¥

STATE OF MICHIGAN
IN THE 2nd CIRCUIT COURT FOR THE COUNTY OF BERRIEN
PEOPLE OF THE STATE OF MICHIGAN,
PlaIntIff-Appsllee,

Clr. Ct. No.5 13-00Q303—FC

-VS-

Honorable Gary J. Bruce

JOVON CHARLES DAVIS,
Defendant-Appellant,

Arthur J• Cotter
Berrien County Prosecutor
Attorney for Plaintiff
311 Port Street
St. Joseph, MICHIGAN 49QS5

r

5 ■;

'!

s
;

Jovon C. Davis #591753
MICHIGAN REFORMATORY
1342 West Main Street
Ionia, MICHIGAN, 43846
/

! ;
!

MOTION FOR THE PRODUCTION OF TRANSCRIPTS
AND COURT RECORDS

;
i

with
Jovon Charles Davis, hereafter appellant,
reservation of all inalienable rights under State and

NOW COMES,

I
•i

express
Federal

Constitutions,

production of

coming

transcripts

and

a

forth

wl th

court

records

request
file

in

for

the

relation

made in accord MCR
to the above entitled cause. This request Is
351 US12; 76 S.Ct. 535;
6.433(C)(2), and Griffjn v Illinois,
100 L.Sd.24 391.
v
\
\
\
\

X'

£

■f

\

TAKE NOTICE;

MCL

440.1201(25)(26)(27),

to wit;

Any breach

of

fiduciary duty by the denial of this request for the
production
of transcripts and court records, will be construed as a denial
of

constitutionally

of this Court,

protected

rights

acting at all times

by

the

judicial

under the

officer

"color of

law,"

and such a denial will require reversal
upon appellate review.
Appellant says the following to wit;
1 . Appellant was convicted by way of a verdict of guilty after
a

jury

trial

on January

17,

2014,

before

the Honorable

Cary J. Bruce of the 2nd Judicial Circuit Court.
2. Peutttoner was found guilty of one count of second-degree
murder, MCL 7 5Q.317; one count of
assault with intent to
commit murder,
of

a.

firearm,

concealed
of

a

MCL
MCL

weapon,

firearm

750.33;

one count

750.224f;

MCL

during

one

750.227;
the

felon-in-possession

count

one

of

count

commission

of

carrying

of
a

a

possession
felony,

MCL

750.227b; and one count of domestic assault third ofense,
MCL 750.51(4).
3.

Appellant was sentence bn

February 25,

2015,

before the

Honorable Gary J. Bruce of the 2nd Judicial Circuit Court.
4.

Appellant

was

sentenced

as

a

fourth-offense

offender, MCL 759.12, to concurrent terms of

habitual

incarceration

of 500 months to 100 years for the murder conviction,

300

to 900 months for the assault conviction, 75 to 240 months
the felon—in—possession and carrying a concealed weapon
convictions, and 45 to 130 months for the domestic assault
conviction,

&

with

a consecutive

£

sentence

£

of

two yeas

for

1

p

the felony firearm conviction.
5.

Appellant

is currently

DEPARTMENT

OF

being

CORRECTIONS

CORRECTIONAL FACILITY,

housed

within

the

MICHIGAN

at

located

at 1342

the

MICHIGAN

REFORMATORY

Nest Main

Street,

in Ionia, MICHIGAN.
6. Appellant filed within the 2nd Judicial Circuit Court his
Claim of Appeal on February 25, 2014.
7.

Appellant

filed within

the

Michigan

Court

of

Appeals

a

Appeal of Right, MCR 7.204, on December OB, 2014.
8.

The

Michigan

Court

of

Appeals

affirmed

appellant's

convictions in a Unpublished Opinion on March 22, 2015.
9.

On

December 21,

transcripts

2014,

from

this

Appellant
Honorable

requested
Court,

documents

with

no

and

response

given.(See Attached Exhibit A)
10. On march 05,

2015, Appellant again made, a formal request

for the production of documents by way of a

"motion

for

PREPARATION OF TRANSCRIPT AT PUBLIC EXPENSE" for the listed
transcripts

and

court

records

he

is

seeking

infra.(See

Attached Exhibit 3).
11. On September 11, 2015, appellant filed within this Honorable
Court a "MOTION TO COMPEL" for the requested documents.(see
Attached Exhibit C).
12.

On

September. 17,

Judicial

Circuit

2015,

appellant

Court

a

"Motion

filed

within

for

the

Substitution

2nd
of

Appellate Counsel" due to counsels refusal to appropriately
assist in the retrieval of relevant documents for appellate
review

as

well

as

conflict

of

interest.

(See

Attached

Exhib11 D).

:4

■;£

sf

1

1
13.

To .the

best

of

appellant's

requested transcripts have
and said transcripts•are

knowledge

not to

several

date been

of

the

transcribed f

Integral to appellant's appellate

review.
14. Appellant intends to raise several issues in his subsequent
post-conviction motions that were not raised
of

Right,

necessary

as

he

was

transcripts

not

proficient

and

court

in

in his Appeal
acquiring

documents

that

the

were

In

fact previously requested by him.
15.

Appellant

further

contends

that

the

requsted

documents

are required to perfect a Motion for Relief From Judgment,
pursuant to MCR 6.539.
16.

The

specific

transcripts

and

court

documents

appellant

is seeking to obtain include the following:
a.

Transcripts

of

Preliminary

appellant's

held on January 31 ,

3013,

in the

Examination,

5th District

Court

for the City of St. Joseph.
b.

Transcripts
held on

May

of

appellant's

2.3,

2 013,

in

Preliminary

the 5th

Examination,

Distric

Court

for

the City of St. Joseph.
c.

Transcripts of

the pretrial

conference hearing,

held

on August 06, 2013, In the 2nd Judicial Circuit Court.
d.

Transcripts of

the pretrial

conference hearing,

held

on August 14, 2013, in the 3rd Judicial Circuit Court.
e.

Transcripts of

the pretrial

on November 19, 2013,
f.

4

Transcripts of

conference hearing,

held

In the 2nd Judicial Circuit Court.

the pretrial

4

conference hearing,

4

held

n:

on November 25, 2013, i the 2nd Judicial Circuit Court.
g.

Transcripts of

the pretrial

held

conference hearing,

on December 13, 2013, in the 2nd Judicial Circuit Court.
h.

Transcripts of

the pretrial

held

conference hearing,

on December 16, 2013, in the 2nd Judicial Circuit Court.
i.

Transcripts of

the pretrial

held

conference hearing,

on December 23, 2013, in the 2nd Judicial Circuit Court.
j.

Transcripts of

the pretrial

conference hearing,

held

on January 05, 2014, in the 2nd Judicial Circuit Court.
k.

A

complete

including
Motions,

copy

of

the

above

but not

limited

Response

Motions,

Certification

of

Bind

entitled
Judicial

to,

Bind

Over,

file,

court

Dispositions,

Over

pleadings

Appointment

of

and

Counsel

Orders, and the like.
17. Appellant contends that he has shown good cause under the
definition

of

MCB

6.433(C)(3),

additional proceedings
bas I s

that

said

the

transcription

not previously transcribed,

requested

referenced proceedings

for

of

the

him

to

transcripts

are necessary

for

post-conviction appellate remedies by way of
rellef From

of

on the
above
perfect

a Mot Ion Tor

Judgment, pursuant to MCF. 5.500.

13. Appellant is a indigent within the meaning of the law and.
cannot pay the cost for copies of the transcripts and court
documents he is requesting.
19. As such, appellant believes that he is entitled to a free
copy of these transcripts and court records at state expense
pursuant to MCH 6.433 (C)(2),(3).

20.

Appellant

refers

this

Court

to

his

attached

Affidavits

and Brief In Support of this motion and would include and
incorportate them by.reference.
FOB THE

WHEREFORE,
this

Honorable

Court

FOBGOING RESONS,
GRANT

th1s

Appellant requests

motion

and

i ssue

an

that
ORDER

requiring the Clerk to provide the Appellant with copies of the
transcripts

and

court

documents

reguestee,

and,

If

necessary,

ORDER the transcription of any additional proceedings were not
previously transcribed and filed within this Court, without cost
pursuant to MCR 5.433 (C)(3).
Respectfully Submitted

April 01, 2015

¥

vJrcrv&n 0 ______
O&von Charles Davis #591753
Appellant, In Pro Per
MICHIGAN REFORMATORY
1342 West Main Street
Ionia. MICHIGAN 48845

£

£

STATS OP MICHIGAN
IN THE 2nd CIRCUIT COURT FOR THE COUNTY OP BERRIEN
PEOPLE OP THE STATE OP MICHIGAN,
Plaint!ff-Appellea,

CJr. Ct, No.» 13-000303-FC

-VSHonorable Gary J. Bruce

JOVON CHARLES DAVIS,
Defendant-Appellant,

AFFIDAVIT IN SUPPORT OF MOTION FOR THE PRODUCTION
OF TRANSCRIPTS' AND COURT RECORDS
STATE OF MICHIGAN)
) S3 .
County of Berrien)
1/

Jovon Charles Davis,

as

hereby depose and state the

affiant

following

In

in

the

instant

support the

cause,

attached

MOTION FOR THE- PRODUCTION OF TRANSCRIPTS AND COURT RECORDS:
1.

I am currently

a

Inmate within

the

MICHIGAN

DEPARTMENT

OF CORRECTIONS.
2.

I am currently being housed at
CORRECTIONAL FACILITY,

located

the MICHIGAN REFORMATORY
at 1342

West Main

Street

In Ionia, MICHIGAN.
3, If sworn as a witness,

I can competently testify to the

facts as set forth herein.
4. I was convicted by way of a guilty verdict after a jury
tr l al on January 17,

before the Honorable Gary J. -

2013,

Bruce of the 2nd Judicial Circuit Court.

4

£

4

4

1
5, I was found guilty of one count of second-degree murder,
MCL 750,317; one count of assault with
murder,

MCL 750,33;

Intent to commit

one count of felon—in-possession

of

a firearm, MCL 75Q.224f; one count of carrying a concealed
weapon, MCL 750,227; one count of possession of a firearm
during the commission of a felony, MCL 750,227b;

and one

count of domestic assault third offense, MCL 750.31(4),
5, I was sentence • before the Honorable Gary .7. Bruce,

in the

2nd Judicial Circuit Court, as a fourth-offense habitual
offender, MCL 769.12, to concurrent terms of incarceration
of 600 months to 100 years for the murder conviction, 300
to 900 months for the assault conviction, 76 to 240 months
for the felon-in-pdssession and carrying a concealed weapon
convictions, and 46 to 130 months for the domestic assault
conviction, with a consecutive sentence of two yeas

for

the felony firearm conviction,
7,

I filed within the 2nd Judicial Circuit Court my Claim
of Appeal on February 25, 2014.

3. I filed within the Michigan Court of Appeals a Appeal of
Bight, pursuant to MCR 7,204 et seq, on December 03, 2014,
9. The Michigan Court of Appeals affirmed my convictions

in

a Unpublished Opinion on March 22, 2015,
10, On December 21, 2014, I requested documents and transcripts
from

this

Honorable

Court,

with

no

response

given.(See

Attached Exhibit A)
11, On march 05, 2015, I again made a formal request for the
production of documents by way of a "MOTION FOR PREPARATION

¥

¥

¥

¥

1
OF TRANSCRIPT AT PUBLIC EXPENSE" for the listed transcripts
and court records.(See Attached Exhibit B).
12. On September 11/ 2015, I filed within this Honorable Court
a

"MOTION

TO

COMPEL"

for

the

requested

documents.(See

Attached Exhibit C),
13.

On September 17,
Circuit

Court

a

2015,

I

"Motion

filed within
for

the

Substitution

Counsel*"' due to counsels refusal

2nd Judicial
of

Appellate

to appropriately assist

in the retrieval of relevant documents for appellate review
conflict of Interest. (See Attached Exhibi D).
14. I filed a complaint within the Attorney Grievance Commission
for the misconduct and Ineffective assistance of appellate
counsel. (See Attached Exhibit E)
15.

I

intend

to

raise

several

issues

in

post-conviction motions that were not raised

my

subsequent

in his Appeal

of Right, as I was not proficient In acquiring the necessary
transcripts and court documents that were in fact previously
requested by me.
16.

I further states that the regusted documents are required
to

perfect

limited

to

post-conviction
a

Motion

pleadings,

for Relief

From

including

but

not

Judgment,

pursuant

to MCR 6.500 et seq.
17. The specific transcripts and court documents I am seeking
to obtain are:
a.

Transcripts

of

my

Preliminary

Examination,

held

on

In the 5th District-Southern Division

January 31, 2013,

Court for the City of St. Joseph.

d

d

d

¥

b.

Transcripts
May 23,

of my

2013,

Preliminary

in the

Examination,

5th District-Southern

held

on

Division

Court for the City of St. Joseph,
c. Transcripts of the pretrial conference hearing,

held

bn August 05, 2013, in the 2nd Judicial Circuit Court.
d. Transcripts of the pretrial conference hearing,

held

on August 14, 2013, in the 3rd Judicial Circuit Court.
e. Transcripts of the pretrial conference hearing,

held

on November 19, 2013, in the 2nd Judicial Circuit Court.
f. Transcripts of the pretrial conference hearing,

held

on November 25, 2013, in the 2nd Judicial Circuit Court.
g. Transcripts of the pretrial

conference hearing,

held

on December 13, 2013, in the 2nd Judicial Circuit Court.
h. Transcripts of the pretrial conference hearing,

held

on December 15, 2013, in the 2nd Judicial Circuit Court,
i. Transcripts of the pretrial conference hearing,

held

on December 23, 201 3, in the 2nd Judicial Ci.rcuit Court.
j. Transcripts of the pretrial conference hearing,

held

on January 05, 2014, in the 2nd Judicial Circuit Court.
3c.

A

complete copy of the

above

including but not limited to,
Motions,

Response

Certification

of

Motions,
Bind

entitled

file,

Judicial Dispositions,

Bind

Over,

court

Over

pleadings

Appointment

of

and

Counsel

Orders, and the like.
18. I am a indigent within the meaning of the law and cannot
pay

the

cost

for

copies

of

the

transcripts

and

court

documents I am requesting.

4

4

4

4

4

1
19. I intend to raise the following issues for post-conviction
relief:
a. Prosecutorial Misconduct:
b. Ineffective Assistance of Counsel;
c. Abuse of Discretion? and
d. Ineffective Assistance of Appellate Counsel.
20.

To the best of my knowledge,

my appellate counsel never

attempted to secure the production of these transcripts.
21.

I

cannot present

the

above listed

issues

for

appellate

review unless I can obtain a copy of the transcripts and court
records I aitl seeking.
I declare under the penalty of perjury that the forgoing

Is

true to the best of my knowledge, Information nd belief.

JUr1/T>n (1 OcXtAA, ^ ffif 1 1SS

Executed on April 01, 2915

Jovori Charles Davis #591753
Defandant-Appallant/AffIant
Subscribed and sworn before me
von th I s_

of April, 2015

notary Public, Ionia, MICHIGAN
My Commission Exp I res-jp-"

~r 2

^

DEEV. LEMKE
NOTARY PUBLIC, STATE OF Ml
COUNTY OF IONIA
MY COMMISSION EXPIRES May 7,2020
ACTINQ IN COUNTY Of

■f

a

STATS 0? MICHIGAN
IN THE 2nd CIRCUIT COURT TOR THE COUNTY OP BERRIEN
PEOPLE OP THE STATE OP MICHIGAN,
Plal nt I ff-Appel lee,

Clr. et. No.! T3-000303-FC

—vs—
Honorable Gary J. Bruce

JOVON CHARLES DAVIS,
Defendant-Appellent,

BRIEF IN SUPPORT OF MOTION FOR THE PRODUCTION
OP TRANSCRIPTS AND COURT RECORDS
The

appellant,

-Jovon Charles

Is

Davis,

currently

serving

a term of imprisonment In the MICHIGAN DEPARTMENT OP CORRECTIONS
after being found guilty by way of a jury trial of second-degree
murder, MCL 750.317; assault with

750.33; felon-in-possession of a firearm, MCL 750.224f;
a concealed weapon, MCL 750.227;

MCL

intent to commit murder,

carrying

possession of a firearm during

the commission of a felony, .MCL 750.237b;

and domestic assault

third offense, MCL 750.31(4),
Appellant was sentenced before the Honorable Gary J. Bruce,
as

a

fourth-offense

habitual

offender,

MCL

769.12,

to

serve

concurrent terms of imprisonment of S00 months to 100 years for
the

murder

conviction,

conviction,
76

to

240

300
months

to

900

for

months

the

carrying a concealed weapon convictions,

for

the

assault

felon-in-possession
and 46

to 130

and

months

for the domestic assault conviction, preceded by two ysars
the felony firearm conviction.

if

k

if

for

Appellant appealed

his

convictions

in

the

Michigan

Court

of Appeals. His convictions were affirmed in a unpublished opinion
by the Court of Appeals on March 22,

2016,

with

a remand for

correction of judgment of sentence, to the 2nd Judicial Circuit
Court for resentencing.
Appellant is now before this Court

seeking the court file

and transcriptions of specific hearings within the court so that
he

can

perfect

collateral

post-conviction

a Motion for Reconsideration

in

remedies

the Court

by way

of Appeal,

of

pursuant

to MCR 7.215 (I), ' as well as a Motion for Relief Rrom Judgment
in the 2nd Judicial Circuit Court, pursuant to MCR 6.500.
Appellant
Affidavit

of

comes

as

an

Indigency,

indigent,

and

as

cannot

is

evidenced

afford

to

by

his

purchase

the

transcripts and court documents that he is seeking.
Moreover,
appellant

without

cannot

these

possibly

transcripts

present

the

and

issues

court
for

seeking relief in any viable and/or meaningful way

records,

which

he

Is

in his post-

conviction proceedings.
In Sr iff in supra, the Supreme Court held that a State with
an appellate
those

who

system which

could

afford

made

available

them was

trial

transcripts

constitutionally

required

to
to

provide a "means of affording adequate and effective appellate
review to

indigent defendants."

Id.,

at

3 52

US

at

19?

Lane

v

Brown, 372 US 47.7? 33 S.Ct. 763? 9 L.Ud. 2d 392, 397 (1 933).
As

such,

court records

the general rule
and

transcripts

who cannot afford them. It

4

ii

is that the State must provide
to

Indigent

criminal

defendants

is simply the only way to assure an

$

•4

1
adequate and effective appeal.
S.Ct.

330?

2d 321 ,

33 L.Bd.

By Itts v Lucy,

323

(1935);

State Parole Board and Prison Terms
215; 73 S.Ct. 1061; 21 L.Bd.

459 US 397;

105

Eskridge v Washlngton
357 US

and Paroles,

214,
350

2d 1259 (1953); Burns v Ohio,

US 252; 79 S.Ct. 1164; 3 L.Bd.2d 1209 (1959); LANS, supra; Draper
v Washington, 372 US 437; 83 S.Ct. 774; 9 L.Bd. 2d 399 (1953).
As

the

recognize

that the

stated,

effective

and

transcripts

tr i al

without

has

itself

Court

adequate

that

impossible
we held

Supreme

we

review

is

appellate

or

provide trial

State must

"(blecause

adequate

substitutea

records

to

inmates

unable to buy them.” Griffin, supra, 351 US at 20; Bounds v SmIth,
430 US 317; 97 S.Ct. 1491; 52 L.Bd. 2d 72, 79 (1977),
Thus,

arbitrarily

to

deny

the

the

defendant

criminal

transcripts and court records that they need to effectuate pos.tconviction remedies violates the First and Fourteenth Amendments
to

the

United

substantiva

States
The

evi1.

and

Constitut I on
Supreme

has

Court

Amendment rights may not be used as

result

would

that

stated

the means

in

a

First

or the pretext

(sea NAACP v BUTTEN, 371 US
for achieving "substantive evils"
2d 405, 424) which the leg Islature
415, 444: 83 S.Ct. 328; 9 L.Bd.
ha3 the power to control. California v Trucking Onli-nited, 404
US 503; 92 S.Ct. 509; 30 L.Bd. 2d 642, 649 (1972).
In the
and court
Relief

instant case,

records

From

for

Judgment

Defendant

transcripts and court records

to

MCR

d?

6.500,

a

motion for

Bequests

for

needed for this type of proceeding

are governed by MCR 6.433(C) which states:

$

seeking his transcripts

of perfecting

the purpose
pursuant

is

-t

/

(S)
Other
postconviction
Proceedings*
An Indigent defendant who Is not eligible
to file an
appeal
of
right
or
an
application for leave to appeal may obtain
records and documents as provided In this
subrule.
(1) The defendant mu3t make a written
request
to
the
sentencing
court
for
specific court documents or transcripts
indicating that the materials are required
to pursue postconvIctI on remedIes in a
state or
federal
court and
are
not
otherwisa available to the defendant.
(2) If the documents or transcripts have
been filed with the court and not provided
previously to the defendant, the clerk
must provide the defendant with copies
of such materials without cost to the
If
the
requested materials
defendant,
the
have been provided previously to
defendant, on defendant's showing of good
cause to the court, the clerk must provide
the defendant with another copy.
(3) The court may order the transcription
of additional proceedings If
it finds
that there is good cause for doing so.
After such a transcript has been prepared,
the clerk must provide a copy to the
defendant.
(4) Nothing in this rule precludes the
court
from
ordering materials
to
be
supplied to the defendant in a proceeding
under this subchapter 6.500.
Specifically, Defendant

is seeking to obtain a copy of the

transcripts and court records as outlined in this motion, pursuant
to MCR 6.433(C)(2),(3), on the basis that he can show good causa
why

they

received a
Affidavit

are

needed,

copy of

First,

Defendant

said transcripts

in Support of Motion). As

attest

and

that

records.(See
he

such,

he

never

attached

is entitled to a

copy of any such transcripts and court documents that have been
filed with this court free of cost in accord MCR 6.433(C)(2),

4

4

4

4

~>

In addition to this,

appellant can show good cause on the

basis that these documents are essetlal for him to perfect viable
and meaningful

issues

In his 5.500 Relief Prom Judgment motion.

Appellant is specifically seeking the following transcripts and
court records:
a.

held

Transcripts of Appallent's Preliminary Examination,
on January 31, 2013,

in the 3rd Judicial Disctrlct Court,

for the City of St. Joseph.
b.

held

Transcripts of Appellant's Preliminary Examination,
on May 23,

2013,

in the 3rd Judicial District Court for

. the City of St. Joseph.
c.

held on

Transcripts of the pretrial conference hearing,
August 06, 2013, in the 2nd Judicial Circuit Court,

d.

August
e.

held on

Transcripts of the pretrial conference hearing,
14,

in

201 3,

the

2nd

Judicial

Circuit

Court.
held on

Transcripts of the pretrial conference hearing,
November
where

1 9,

2013,

In

the' appointed

the

2nd

counsel

of

Judicial

Circuit
Mr.

record

Court,

Samrnis

was

excused as Appellant's trial counsel.
f.

Transcripts
November
where

25,

of

pretrial

2013,

substitute

in

conference

the

counsel

of

2nd

Judicial

record,

held

hearing,

Circuit

Earnest

on

Court,

White

was

appointed as new counsel.
g.

Transcripts of the pretrial conference hearing,
December 13, 2013,

h.

held on

In the 2nd Judicial Circuit Court.

Transcripts of the pretrial conference hearing,

held on

December 16, 2013, in the 2nd Judicial Circuit Court.

X

X

X

X

X

I. Transcripts of

the pretrial conference hearing,

held

on

December 23, 2013, in the 2nd Judicial Circuit Court.
j.

Transcripts

of

the pretrial conference hearing,

held

on

January 6, 2014,In the 2nd Judicial Ircult Court,
k.

A complete copy of the above listed court file,
but

not

IImi ted

to,

judicial

Including

dispositions,

motions,

response motions, Bind Over pleadings and certifications,
appointment of counsel forms, act.
Appellant states that he has not been provided with copies
of the requested documents that he Is seeking, as they may have
not

been

previously
the

Regardless,
Appellant

Is

necessary for

transcribed

specific

requesting
him to

and

transcripts
should

perfect

be

filed
and

within
court

provided

post-conviction

the

court,

records

because
remedies

that

they

are

in this

-case and are not otherwise available to him. See MCR 5.433(C)(1),
Appellant

states

that

he

is

requesting

documents at state expense because he
by his Affidavit of
for said- copies.

is

a

a

copy

indigent,

of

these

as shown

Indigency, with no available assets to pay

Any financial assistance that he does receive

is a personal loan from friends and family that must be repaid
upon his release from incarceration. As such circumstances exist,
appellant has no other means of retaing a copy of the necessary
transcripts and documentation except through this Honorable Court.
Appellant

further

states

that

he

Is

clearly

entitled

to

a free copy of the court records and transcripts that are within
the court file as they have been previously transcribed and are
required to perfect defendant's post—conviction motions.

ii

tS

iS

Likewise, this Court should order the transcription of any
of the other proceedings that he

is seeking and order the clerk

to provide him with a free copy of the same because he can show
good cause

for them to

be

transcribed

In

this

■See MCR

case.

6.433(C)(3); People v Caston, 223 Mich App.291, 293 (1993).
As stated supra, Appellant

Is

In the process of

initiating

post-conviction proceedings by filing a Motion for Relief From
Judgment,

pursuant

to

MCR

S.50Q.

Appellant

intends

to

raise

several issues Including:
T-SSUE I
APPELLANT WAS DENIED DUE PROCESS OF LAW,
WHEREAS THE PROSECUTOR COMMITTED SEVERAL
ISSUES OF MISCONDUCT, INCLUDING THE USE
OF UNCONTESTED PERJURED TESTIMONY AT TRIAL.
ISSUE II
APPELLANT WAS DENIED DUE PROCESS OF LAW
WHERE TRIAL COUNSEL WAS CONSTITUTIONALLY
INVESTIGATE
INEFFECTIVE FOR' FAILING TO
PRIOR INCONSISTANT STATEMENTS BY PROSECUTION
WITNESSES THEREBY DENYING HIM A PROPER
DEFENSE AT TRIAL.
ISSUE III

APPELLANT WAS DENTED DUE PROCESS OF LAW
WHERE THE JUDICIARY OFFICER GARY J. BRUCE
ABUSED HIS DISCRETION IN DENYING APPELLANT
TO PRESENT A PROPER DEFENSE AND THEREBY
DENYING HIM A FAIR AND IMPARTIAL TRIAL.
ISSUE IV
APPELANT WAS DENID HIS CONSTITUTIONAL RIGHT
TO APPEAL WHERE HIS APPELLATE COUNSEL WAS
INEFFECTIVE IN FAILING TO ORDER THE RELEVANT
TRANSCRIPTS NECESSARY TO SUPPORT HIS CLAIMS
FOR APPELLATE REVIEW.

-if

it

it

V*

With

respect

to

the

prosecutorial

requested transcripts will

i ssue,

misconduct

claims that

support appellant's

prosecutor engaged in numerous instances of misconduct,
witness

Intimidation violations.

the
the

Including

The requested transcripts will

support appellant's claim that the prosecution used tactics of
intimidation to' gain a verdict

of guilty.

The existing record

is crucial in the detemination of whether appellant's due process
rights were
People v

in fact violated

Canter,

197

Mich

by the
App

prosecutions conduct.
(1992),

550,

and

the

See

use

of

intimidation of a witness to gain favorable testimony Is improper.
See People v Layher,

233 Mich App

573

Aff1d on- other

(1999),

grds 454 Mich 755 (2001).
Wot only is intimidation discouraged, but so is the induction
of

personal

opinion without

verifiable with

factual

a basis

evidence,

avoided. See People v Smith,

either

and

said

in

the- record

actions

153 Mich App 220

should

(1997),

or
be

just as

it is a long-standing rule of law that an officer of the court
refer to

facts not

may not

argue or

Brocato,

17 Mich App 277' (1959);

210 (1973);

of the

record.

People v McCain,

People v Knolton 85 Mich

App 424

People

v

34 Mich App

(1973);

People v

Viaene, 119 Mich App 590 (1932),
•

as the represent Jve of THE PEOPLE,

that the

defendant has

a fair

trial,

the prosecutor must see
and

protect

the people,

who are as concerned with protecting the innocent as convicting
the guilty. Brocato,

supra. Also as a officer of the court the

prosecutor has the obligated duty to

S 03

that the trial court

does not coaim it reversible error, even if it favors the People's
case. People v Denny, 55 Mich App 49 (1973).

■if

■if

414, 425;

440 MW.

2d 14

(1939)(Counsel

ineffective

for failing

to prepare for trial).
With respect

to the

abuse

of

discretion

issue,

appellant

states that the requested documents will support his claims that
during

pretrial

proceedings

of the

Issues between himself

appellant

Informed

and appointed

the

judiciary

counsel of

record

Issues of such poor performance that appellant was

forced

Mr. White.

to aquire a personal
trial

loan

After

proceedings.

In order

to retain

retaining

counsel for his

substitute

Tudge

counsel.

Bruce then abused his discretion in refusing a adjournment for
substitute counsel to properly prepare for trial, thereby forcing
appellant to proceed to

trial

with

the

ineffective

assistance

of court appointed counsel Mr. White.
The requested transcripts of the pretrial conference hearings
as listed supra are necessary to support appellant's claim that
he did in fact, several occasions, placed upon the record before
j udge

Bruce

in

the

pretrial

his

proceedings,

concerns

with

counsels ineffective assistance in his defense.
Appellant

further

states

that

the

denial

of

this

motion

for transcripts and court records will further support his claim
of a abuse of discretion by this judicial officer.
Finally, with respect to the last

issue, appellant

intends

to raise in his post-conviction proceedings a claim of Ineffective
assistance of

appellate

counsel.

The

law

indicates

that

both

State and Federal Constitutions require that a criminal defendant
recsive effective

assistance of

counsel

to perfect

a:

his

appeal

-

1
Am VI, XIV, Evitts,

supra. Likewise,

counsel has been found to

be ineffective for failing to properly prepare by procuring the
necessary transcripts* Blackburn, supra.
Ineffective assistance of appellate counsel
recognized as constituting good causa

401 NW.

(1937); People v Pauli ,
(1934).

2d 233 (1935),

(1995)(Court

found

ineffective

People v Wolf,
Iv den,
534;

133 Mich App 530,

155

423 Mich 899

361

449 Mich 375;

See also People v Peed,

long been

for a delayed appeal or

collateral attack on a criminal conviction.
Mich App 225, 228;

has

NW.

2d

233

535 WW.

2d 495

of

appellate

counsel

"[IIn

every

criminal

assistance

overcomes procedural bar of MCR 5.503(D)(3)).
As

our

prosecution,

own

constitution

the

accused

states,

shall

have

the

assistance of counsel for his defense;

have

the

to nave an appeal as a

matter of right; and as provided by law,
orders,

right a • • to

when the trial court

to have such reasonable assistance as may be necessary

to perfect and prosecute an appeal." Const 1963, art 1 § 20.
When a

court

found

has

a

defendant

to

be

indigent,

"•a

defendant is entitled to the preparation of a transcript at public
expense

where

there

is

no

change

in

financial

defendant's

condition. People v Arquette, 202 Mich App 227 (1993).
"the duty

A court has
defendants
Lane,

541

(2004),

seeking
US 509,

and the

review
533;

124

to provide
of

their

S.Ct.

transcripts to

1994;

153

inability to' obtain transcripts

proceeding may so

Tennessee

convictions,"

1973,

criminal

L.Hd,

of

a

2d

v
320

criminal

impede a defendant's right to appeal that a

new trial must be ordered-. People v Horton,

(after remand)

105

Mich App 329 (1931).'

■i

3

h:

The

prosecuting

officer

represents

the

public

interest,

and as such his objective, like that of the court should be simply
justice.

The prosecutor has no right to sacrifice this to any

pride of professional
or

her

belief

in

success,

the

and

prisoner's

however
guilt,

strong

the

may be

prosecutor

his
must

remember that, though unfair means may happen to result in doing
justice to the prisoner
unjust and

dangerous

in this case,

to

the

"justice so attained

community."

People

v

Is

Skowronski,

61 Mich App 71 (1975).
With respect to the ineffective assistance of counsel issue.
appellant

intends

to

raise

In

post-conviction

proceedings

the

issue of ineffective assistance of trial counsel. The law clearly
Indicates that a criminal defendant has the right under federal
and state constitutions to the effective assistance of counsel.
US Const •

t

Am VI; Const. 1953,

art 1,

S 29.

See also Strickland

v Washington. 465 US 553; 104 S.Ct. 2052; 30 L.Fd. 2d 674 (1934):
People v Pickens, 445 Mich 293; 521 tfW. 2d 797 (1904).
Likewise,

an

attorney's

failure

to

discover

exculpatory

evidence constitutes ineffective assistance of counsel. Kimmelaan
v Morrlsson.

477 US 355,

333;

106 S.Ct.

2d 2574;

91

L.-Fd.

2d

305 (1936); Cave v Singletary, 971 F.2d 1513 (CA 11, 1992); People
v Delessandro, 165 Mich App 559, 574; 419 NW. 2d 509 (1'938).
See

also:

1992)(Counsel

Workman

v

Tate,

ineffective’ for

potential witness;

F. 2d

failing to

Blackburn v Foltz,

(1 937)(Counsel

ineffective for

transcript to

impeach witness);

■iS

957

(CA

prepare by
176

6,

contacting

1177,1134

v Storch,

■is

1345

prepare by

323 F2d

failing to
People

1339,

(CA S,

procuring
Mich

\S

App

1

Because appellant

intends

to

challenge

the

above

a complete transcript of the requested proceedings
are necessary.

See People v Cross,

30

Mich App

Issues,

In this case
326,

344;

136

NW. 2d 393 (1971), aff’d, 335 Mich 237; 191 NW 2d 321 (1971).
A complete record is the appellate advocate's most valuable
tool arid an absolute prerequisite to rendering a effective defense
on appeal.

Harr i s v Rees,

United States,

794 F2d 1163

375 rJS 275,

283;

(CA 5,

34 S.Ct.

1 935);

424; 11

Hardy v

L.Ed. 2d 331

(1954).
Conclusion and Relief Requested
WHSREF0R3,

for

the

foregoing

reasons,

that this Court GRANT this motion and
the clerk

of

transcripts

court provide

and

court

requests

issue an ORDER requiring

the Defendant

documents

Defendant

with

requested,

and

copies of
If

the

necessary,

order the transcription of additional proceedings that were not
previously transcribed, without cost pursuant to MCR 6.433(C)(2).
Respectfully submitted

April 01, 2016

vJkrwn fc. iQaJUIAj

ffil 1*75^)___

Jovon Charles Davis £591753
Appellant, In Pro Per
MICHIGAN REFORMATORY
1342 West Main Street
Ionia, MICHIGAN 48346

■*

■A'

STATE OF MICHIGAN
IN THE BERRIEN COUNTY TRIAL COURT

CRIMINAL DIVISION

THE PEOPLE OF
THE STATE OF MICHIGAN,
Plaintiff

File No’. 2013-000303 -FC

v
JOVAN CHARLES DAVIS,
Defendant

Hon. Scott Schofield

' ORDER GRANTING DEFENDANT'S MOTION FOR .
PREPARATION OF TRANSCRIPTS AND COURT RECORDS
At a session of the Court at the Berrien
Joseph,
St.
in
Courthouse
County
Michigan, on April 20, 2016
PRESENT: Hon. Scott Schofield, Trial Judge
Defendant was convicted of various felonies including
affirmed on appeal and he now
murder. His convictions were
He filed a motion
wishes to pursue post-appeal remedies.
asking that the court provide him with transcripts of court
proceedings in this case, as well as all filed documents.
The court considered the motion.
THE COURT ORDERS that defendant's motion is granted.
THE COURT FURTHER ORDERS that pursuant to MCR 6.433 the
deliberate speed and at public
County Clerk shall with all
expense;
1. Provide defendant with a copy of all documents in
the court file,
2. Provide defendant with a .copy of any transcrip
that has been previously prepared,
transcript of
3 . Prepare and provide defendant with a
any court proceeding that has not previously been
prepared, including all proceedings listed in "116
of defendant's motion.
Dated: April 20

2016

Trial Judge

http: / / berriencounty.org/Courts

/
4

4

4

HC- '

3_/2jiAi

DEPUTY Clkzk*
4

/s

Additional material
from this filing is
available in the
Clerk's Office.

